<html>
<title> - HOMELAND SECURITY: THE 9/11 COMMISSION AND THE COURSE AHEAD</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]


 
                           HOMELAND SECURITY:
                THE 9/11 COMMISSION AND THE COURSE AHEAD

=======================================================================

                                HEARING


                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2004

                               __________

                           Serial No. 108-56

                               __________

    Printed for the use of the Select Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
25-549                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012006


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
David Dreier, California             Barney Frank, Massachusetts
Duncan Hunter, California            Jane Harman, California
Harold Rogers, Kentucky              Benjamin L. Cardin, Maryland
Sherwood Boehlert, New York          Louise McIntosh Slaughter, New 
Joe Barton, Texas                    York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas                 Ben Chandler, Kentucky
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................     1
The Honorable Dave Camp, a Representative in Congress From the 
  State of Michigan..............................................    20
The Honorable Benjamin L. Cardin, a Representative in Congress 
  From the State of Maryland.....................................    39
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    32
The Honorble Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    42
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    20
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington........................................    21
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    51
The Honorable Barney Frank, a Representative in Congress From the 
  State of Massachusetts.........................................    28
The Honorable Kay Granger, a Representative in Congress From the 
  State of Texas.................................................    37
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    20
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    44
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    35
The Honorable Eleanor Holmes Norton, a Delegate in Congress From 
  the District of Columbia.......................................    21
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of North Carolina...............................     4
The Honorable John B. Shadegg, a Representative in Congress From 
  the State Arizona..............................................    41
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    27
The Honoralbe John E. Sweeney, a Representative in Congress From 
  the State New York.............................................    30
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi..................................     2

                                Witness

The Honorable Tom Ridge, Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     8

                             FOR THE RECORD

Questions and Responses Submitted:
  Responses from the Honorable Tom Ridge.........................    54


                           HOMELAND SECURITY:
                          THE 9/11 COMMISSION
                          AND THE COURSE AHEAD

                              ----------                              


                      Tuesday, September 14, 2004

                          House of Representatives,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:08 p.m., in Room 
2318, Rayburn House Office Building, Hon. Christopher Cox 
[chairman of the committee] presiding.
    Present: Representatives Cox, Dunn, Shays, Camp, Diaz-
Balart, King, Linder, Shadegg, Souder, Granger, Sweeney, 
Turner, Thompson, Markey, Dicks, Frank, Harman, Cardin, 
DeFazio, Lowey, Andrews, Norton, McCarthy, Jackson-Lee, 
Pascrell, Christensen, Etheridge, Lucas, and Meek.
    Chairman Cox. [Presiding.] The Select Committee on Homeland 
Security will come to order.
    Pursuant to notice, the committee will proceed today to 
hear testimony from the secretary of the department, Tom 
Ridge--
    Mr. Thompson. Mr. Chairman?
    Chairman Cox. --on the Department of Homeland Security's 
response to the 9/11 Commission recommendations.
    The gentleman from Mississippi?
    Mr. Thompson. Motion for unanimous consent that opening 
statements be limited to the chair and ranking member.
    Chairman Cox. Is there objection? Without objection, so 
ordered.
    Secretary Ridge, we welcome you once again to this 
committee, which is uniquely devoted to the department's 
mission: protecting the United States of America from terrorist 
attack on our soil.
    I know that you are sincere when you say you appreciate 
being here because you do not appreciate to an equal extent 
having to go to 88 committees and subcommittees in the House 
and in the Senate.
    We have lots of ground to cover this afternoon. I will be 
very brief so we can move directly to our members' questions.
    We have just observed the third anniversary of the 
September 11 attacks. The memory is as raw as it ever was.
    Just a few weeks ago, in late July, the 9/11 Commission 
issued its long-awaited report. In its wake, we find ourselves 
compelled to focus our attention on the commission's 
recommended reforms. That is the lens through which we in the 
Congress will in the immediate future view the horrific story 
of the 9/11 attacks themselves. That is not a bad thing because 
it demonstrates that we are focused on prevention, as we on 
this committee have always been focused.
    The objective of all of our efforts, of all reforms of the 
bureaucratic structures and processes that have burdened and 
balkanized our federal intelligence and law enforcement 
agencies, is to render this ability that the terrorists have 
had to succeed in destroying our country far, far more 
difficult than it was three years ago.
    Because the remarkable thing about the 9/11 attacks was how 
simple it was for a motley assortment of suicidal terrorists to 
brush past our defenses. That has changed. And I am confident 
of further and more significant changes in the near future.
    To date, though, the biggest change has been creation of 
the Department of Homeland Security, focused on a disparate 
array of over 22 formerly separate federal agencies and 
enterprises, on a new overriding mission: protecting us, our 
territory and our way of life.
    This committee has, ever since its inception, sought to 
encourage those who lead these efforts to greater and larger 
successes in meeting that central challenge to our 
civilization.
    But today, in the midst of a welter of well-meant but 
mutually exclusive proposals to reform our intelligence 
community and the Congress itself, we have a fundamental 
question to ask you, Mr. Secretary. And I am sure it will come 
up in a wide variety of factual contexts this afternoon.
    How does the Department of Homeland Security fit into the 
grand plan that the president has proposed? What is its unique 
contribution to ensuring our security?
    It is superfluous to add that we look forward to your 
testimony, and an understatement to note that we are grateful 
for your unstinting service.
    At this time, I recognize the gentleman from Mississippi 
for any opening statement that he might have.
    Mr. Thompson. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here with us, for all 
your exceptional service over the past three years.
    Mr. Secretary, as you know, there is strong bipartisan 
support for your department. Every member of this committee 
wants your department to succeed. And we strongly support 
virtually all of the initiatives that you have launched over 
the past 18 months.
    Our differences arise with respect to the speed and scope 
of the administration's homeland security program. We realize 
that you cannot snap your fingers and instantly achieve all the 
security that our times demand. Yet we continue to have glaring 
gaps in our homeland security that could be addressed through a 
more aggressive and robust effort by the administration.
    Let me mention a few examples.
    Chemical plants have been characterized as prepositioned 
weapons of mass destruction. Yet the department has visited 
only a couple of dozen of the hundreds of chemical plants that 
present a serious threat to their surrounding communities.
    There has not been a single hearing in this House of 
Representatives on the administration's proposal to strengthen 
security at these plants.
    Clearly, if this legislation were a priority for the 
administration, this bill would have passed the House long ago.
    Stopping a nuclear and radiological weapon from entering 
the United States should be our greatest homeland security 
priority. However, your department's program to install 
technology to screen cargo container for these materials is 
woefully behind schedule.
    Radiation portal monitors would not be installed at all of 
our sea ports by December 2004 as promised. And under the 
current budget, it may be years before these devices are 
available on the southern borders. This is unacceptable.
    The 9/11 Commission identified the failure to screen air 
cargo as a serious vulnerability in our aviation security 
system.
    In response to the events in Russia, your department 
ordered that all air cargo be screened for flights to and from 
that country. Consistent with this measure, it seems that the 
100 percent screening can be accomplished. It is just a matter 
of having the desire and will to devote the necessary resources 
to get it done.
    The administration often mentions that it has stockpiled 
enough smallpox vaccine for every person in America. It does 
not mention that the program to pre-vaccinate thousands of 
emergency workers was a dramatic failure. Consequently, I do 
not believe we have an effective program in place to vaccinate 
our population in the even of a smallpox outbreak.
    We also have only 159 vials on anthrax vaccine in the 
stockpile, even though a manufacturer has the capability to 
produce thousands of doses of this vaccine.
    Providing effective communication systems for our first 
responders has been identified as a top priority for your 
department. Special patch kits have been developed and 
additional frequencies identified. But improvements have still 
not been seen nationwide.
    Also, more resources are needed to ensure first responders 
can communicate with one another. Remarkably, the 
administration's budget eliminated their only grant program for 
interoperable communications in existence and cut other 
programs that could be used to address this critical need.
    In sum, even though we know that Al-Qa`ida continues to 
plot attacks against the homeland, we are not moving as quickly 
or as strongly as we should to close these security gaps. We 
have the resources to do so; it is just a matter of the 
administration's priorities.
    Mr. Chairman, I thank you, and that concludes my remarks.
    Chairman Cox. I thank the gentleman.
    I would advise members that our witness, Secretary Ridge, 
is under a hard deadline and needs to depart at 4:30 p.m. 
today.
    I have conferred with the ranking member, and we have 
agreed that out of the previous consent order members who have 
statements may submit them for the record, and we will be 
proceeding under the 5-minute rule in putting questions to 
Secretary Ridge.
    In consideration of other members' right to ask questions 
of the secretary, these 5 minutes should be understood to 
comprise both the question and the reply from the secretary.
    Mr. Pascrell. Mr. Chairman, you saw what happened last time 
when we had witnesses before, during this hearing. We were not 
able to get to each of the members. Today the same thing is 
going to happen. We are going to have a vote in 15 minutes. 
There are three or four votes we will vote on. Same situation.
    With all due respect to the secretary's schedule, can we 
ask the secretary to come back for a second round so that all 
of us can ask questions?
    Chairman Cox. Well, I appreciate the gentleman's comment, 
and we will do the following.
    First, we will be monitoring the hearing clock closely so 
that all member adhere to the 5-minute rule, which should, for 
those members who are present, give us the opportunity to put 
questions.
    And second, we will continue, with the secretary's 
indulgence, questioning the witness even during votes, and a 
member will be here in the chair at all times to enable that to 
happen so that members can go to the floor to vote and back.
    With that understanding, Mr. Secretary, I will look forward 
to your testimony.
    Mr. Pascrell. Mr. Chairman, Mr. Chairman.
    Chairman Cox. The gentleman--
    Mr. Pascrell. Can I have one second, please? I take your 
answer to be no, then, to my question.
    Chairman Cox. Well, as I said, the secretary is under a 
hard deadline. Let us see what we can accomplish in this 
hearing. I know that the secretary and the department have been 
very, very cooperative with this committee and will continue to 
be such. The secretary is back again. We have had him several 
times before. And I know that this will not be the last time.
    Mr. Pascrell. I am not questioning the cooperation of the 
secretary. The secretary is doing fine in cooperating. It is 
the Chair that is not doing fine. That is why I asked the 
question.
    We have a right to ask questions. We need the time. We are 
not going to be rushed through this. This is important to all 
of us, our families, our grandchildren.
    You have heard the speech, okay? And you continue to--
basically the second half of the questioners never get a chance 
to ask a question.
    Chairman Cox. In the interest of members--
    Mr. Pascrell. That is the record.
    Chairman Cox. --having the time, I think the correct course 
just now is to proceed with the secretary's testimony and the 
opportunity for members to put their questions.
    So, Secretary Ridge, please proceed with your testimony.

STATEMENT OF THE HONORABLE TOM RIDGE, SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Ridge. Well, thank you for the opportunity to update 
the committee on the many recent improvements to our nation's 
homeland security posture.
    As both the Chairman and Congressman Thompson have noted, 
it is particularly timely in the wake of the thoughtful and 
thorough recommendations made by the 9/11 Commission. Some of 
those recommendations, I suspect, will be the subject of our 
conversation here over the next several hours.
    With this committee's bipartisan support, the Department of 
Homeland Security was established to bring together all of our 
scattered entities and capabilities under one central authority 
to better coordinate and better direct our homeland security 
efforts.
    In the span of our 18-months existence, I believe we have 
made significant progress. Yet there is certainly more to do. 
There is certainly greater capacity to build and more 
improvements to be made.
    Nowhere is this more important than with our intelligence 
operations. That is why improved coordination and cooperation 
across all elements of the intelligence community have been an 
absolute imperative of the homeland security mission and one 
which the president has fully embraced as well as addressed 
with many recent reform initiatives.
    Already we have improved intelligence capabilities and 
information sharing with our partners in the federal 
government, as well as with state, local and private-sector 
partners who work across America on the front line of homeland 
security.
    As an example, the president recently established the 
national counterterrorism center, consistent with the 
recommendation of the 9/11 Commission. The Department of 
Homeland Security's Office of Information Analysis will 
participate in the new center, which builds on the capabilities 
of the previous reform in the Terrorist Threat Integration 
Center.
    And as a member of the intelligence community, Homeland 
Security will have full access to a central repository of 
intelligence information.
    Just as importantly, we can effectively and efficiently 
channel that information to those who need it by using new 
communication tools, such as the Homeland Security Information 
Network.
    This network is a real-time, Internet-based collaboration 
system that allows multiple jurisdictions, disciplines and 
emergency-operations centers to receive and share the same 
intelligence, the same tactical information, and therefore, 
when need be, be operating around the same situational 
awareness.
    This year we have expanded the information network to 
include senior decision-makers, such as governors and state-
wide homeland security advisers in all 50 states and 
territories, as well as into the 50 largest major urban areas.
    In order to increase compatibility and reduce duplication, 
we are also working to integrate this information network with 
similar efforts of our partners in the federal government, 
including the law enforcement online and the regional 
information sharing system that operate within the FBI.
    And all of our federal partners, as well as many, many 
others, participate in the department's new Homeland Security 
Operations Center. This 24-hour nerve center synthesizes 
information from a variety of sources and then distributes the 
information, bulletins and security recommendations, as 
necessary, to all levels of government.
    Our progress in intelligence and information sharing 
demonstrates the links we have made between both prevention and 
protection.
    By establishing a comprehensive strategy combining both 
vulnerability and threat assessments with infrastructure 
protection, we are taking steps daily to protect the public and 
mitigate the potential for an attack.
    We have significantly bolstered our nation's security by 
implementing a layered system of protections at our entries and 
our ports, on our roadways, railways and waterways and even far 
from our borders and shores.
    Many of our initiatives and security measures were tracked 
closely--and were tracked closely with the recommendations of 
the 9/11 Commission.
    With newly trained professional screeners, hardened cockpit 
doors, baggage X-rays and federal air marshals, we have made 
airline travel safer from the curb to the cockpit.
    The recently announced Secure Flight Program will allow the 
government to operate a more robust passenger prescreening 
system for domestic aviation, adding another layer of security 
for airline travelers.
    For most visitors to our country, the comprehensive 
screening process begins overseas at our consulates and 
embassies, where visa applicants often provide biometric 
information, such as their digital photograph and finger scans.
    This closely protected information is used in conjunction 
with US-VISIT, the entry/exit system which was implemented 
ahead of schedule earlier this year.
    In this case, one of the commission's most important 
recommendations was also one of the department's most 
significant accomplishments.
    More than 8.5 million people have been admitted to the 
United States through US-VISIT with biometric verification of 
their identity, and more than 100,000 have turned up on watch 
lists.
    Biometrics are an important tool for our security and will 
significantly improve screening procedures. It is one element 
that will be evaluated as part of the president's recent 
homeland security directive to review screening procedures 
across the government. That is why I have asked for a complete 
evaluation of the current use and future potential of 
biometrics throughout the department.
    I might add--and hopefully our discussion will get into 
this later on, Mr. Chairman--it is not only our current and 
future use within our department within this country, it is 
actually finding a way to move the international community to 
accept international standards for biometrics.
    So that whether we are authenticating documents or 
verifying identities, the United States, in conjunction with 
its allies and partners around the world, will have one 
agreeable standard that, frankly, will enhance security for all 
of us.
    The use of biometrics for screening, access control, 
credentialing and identity verification adds a critical layer 
to our border security strategy.
    The Container Security Initiative helps push another layer 
of security even further outward, as we work with partners in 
foreign ports to help screen cargo before it reaches our 
country.
    With new, advanced manifest requirements, 100 percent of 
the incoming cargo is screened and prioritized using a risk-
based system, which allows for expedited treatment of low-risk 
cargo, such as that shipped by members of our Customs Trade 
Partnership Against Terrorism program.
    And the International Ship and Port Security Code is now in 
effect. The Coast Guard, along with port security grants, have 
helped every port in the United States increase their security 
measures.
    We have armed our nation's first responders and first 
preventers with resources and tools they need to keep America 
safe in our towns and neighborhoods by allocating or awarding 
in excess of $8.5 billion to our state and local partners 
around the country.
    More than just money, we have launched the SAFECOM and 
RapidCom initiatives to provide both short-term health and 
long-term solutions to the problems of interoperability. We 
want to ensure that our first responders can communicate when 
necessary and across jurisdictions, regardless of the frequency 
or the mode of communication.
    To further help our heroes and our first responders, we 
have launched the National Incident Management System and 
published the nation's first-ever comprehensive response plan, 
so we are all on the same page in the event of an attack or an 
emergency. And that includes our citizens, as well.
    We launched the Ready Campaign a little more than a year 
ago to encourage people to get prepared, and we will be adding 
the Ready for Business and Ready for Kids campaigns soon.
    All will encourage citizens to do a couple of simple, 
simple things: Make a communication plan with the people you 
care about. Have a little kit set aside and just stay informed.
    Many people have done so, but we need to spread the word 
even further and faster. So September is National Preparedness 
Month. This month, 82 organizations in all 50 states and 
territories are combining efforts to encourage millions of our 
fellow citizens to be prepared and get involved in the common 
effort for the common good.
    Unfortunately, we have seen in the past few weeks just how 
important preparedness can be. The people of Florida have been 
hit with two hurricanes, a third on the way, and the damage has 
been considerable. But the long lines at many of the outlets 
are indications that citizens know how to be ready.
    And the Federal Emergency Management Agency knows how to be 
ready, as well. They have helped thousands of Floridians 
recover, at least begin the process of recovery, from Charley 
and Frances by prepositioning disaster supplies so they can 
reach affected areas faster.
    It is very important to note, Mr. Chairman, just briefly, 
that there was some concern about bringing FEMA into a 
department because it had such a strong independent identity, 
and people were somewhat concerned that it would compromise 
their ability to respond to natural events.
    But, in fact, our ability as a department to respond to 
these pending natural disasters has taken us far beyond what I 
think anyone could have expected from FEMA acting 
independently.
    FEMA now working with the Coast Guard, working with 
Immigration and Customs Enforcement. Frankly, they just 
recruited and we have sent down over a thousand volunteers from 
our citizen corps to help this effort.
    So by bringing FEMA in, remembering what its historic 
mission was, and that is responding to natural disasters, but 
then making available resources of the department within their 
partners in the department to it, I think have effectively 
added to, I think, a positive legacy of disaster relief for 
FEMA.
    Along with local authorities in Florida and volunteers from 
around the country, I think they have done a remarkable job. 
And I believe the people associated with the effort are to be 
commended for their effort.
    The spirit embodied by FEMA workers is not unusual to all 
the men and women that work in homeland security. We work with 
countless partners every day around the country to ensure that 
the country is protected.
    The breadth of issues I have covered, Mr. Chairman, and 
that are covered by the recommendations of the commission, are 
both indicative of yet also not sufficient to capture the full 
scope of this department and our mission.
    As we continue to evolve into a more agile agency, we look 
forward to continuing our close working relationship with 
Congress. We appreciate and value the mechanism for 
congressional oversight that has been laid out in the 
Constitution.
    However, we believe the relationship would be significantly 
enhanced, substantially improved--and here I know I am treading 
on some very thin ice, but will say it anyhow as a former 
member--if there was an effort within Congress to reduce the 
number of committees and subcommittees that have oversight over 
this department.
    Working together is the only way we can accomplish our 
goals. And no doubt, those goals are the same: preserve our 
freedoms, protect America and secure our homeland.
    I appreciate the opportunity, Mr. Chairman, to share these 
few thoughts with you and look forward to the questioning 
period.
    Thank you.
    [The statement of Mr. Ridge follows:]

             Prepared Statement of the Honorable Tom Ridge

Introduction
    Good morning, Chairman Cox, Congressman Turner, and Members of the 
Committee. I am pleased to have this opportunity to update the 
Committee on the Department of Homeland Security's (the Department or 
DHS) activities and tremendous progress in improving the security of 
America's families and communities. This is particularly timely in the 
wake of the thoughtful and thorough recommendations made by the 
National Commission on Terrorist Attacks Upon the United States (the 9/
11 Commission).
    As the 9/11 Commission recognized, in the aftermath of September 
11th, it was clear that the Nation had no centralized effort to defend 
the country against terrorism, no single agency dedicated to our 
homeland security. While many of our Nation's prevention and response 
capabilities existed, the Nation was not in a position to put the 
pieces together in a comprehensive manner to combat the scale of 
attacks we suffered on September 11th.
    Our enemies are relentless, and their desire to attack the American 
people and our way of life remains, though weakened by our successes in 
the global war on terrorism. To prepare our country for the future and 
these new realities, the President and the Congress worked together to 
create a centralized point of command for homeland security. Unified by 
a common mission, the 180,000 people of the Department are focused 
daily on one vision for a safe and secure America.
    I want to thank the Commission for recognizing the tremendous 
strides we have already made. Allow me to mention a few, which I will 
later elaborate upon further.
    First, the Administration's progress is marked by dramatically 
increased intelligence capabilities and information sharing amongst not 
just Federal agencies but with our State, local, tribal and private 
sector partners on the front lines of homeland security. As an example, 
the President's creation of both the Terrorist Threat Integration 
Center (TTIC) and the Terrorist Screening Center (TSC) is centralizing 
terrorist-related information enabling significant coordination on the 
Federal level, ensuring that a comprehensive view is achieved.
    Further, we are dismantling roadblocks that once prevented 
communication between the Federal government and our partners in 
States, cities, counties and towns across America. Through systems like 
the Homeland Security Information Network (HSIN), we can share a common 
picture of events, recognize the patterns and take action to mitigate 
vulnerabilities and thwart our enemies.
    The Homeland Security Information Network also demonstrates the 
links we have made between prevention and protection. By integrating 
vulnerability and threat assessment data with infrastructure protection 
efforts, we work with the owners and operators of our critical assets 
nationwide to mitigate the potential for attack.
    Additionally, we have bolstered our Nation's border and 
transportation security by turning the pre-existing patchwork of 
programs into a layered system, closing vulnerabilities with programs 
like US-VISIT and the Container Security Initiative (CSI) that start 
overseas and bring travelers and cargo more securely into the U.S.
    Finally, as you know, this month is National Preparedness Month. 
The men and women of the Department and our first responder partners 
across the Nation are keenly aware that preparedness is vital to our 
ability to prevent and respond to acts of terror and other emergencies. 
In addition to awarding over $8.5 billion to States and local 
governments, DHS has made great strides in improving the way we 
administer, award, and disburse critical Federal assistance to the 
police, fire, and EMS agencies within our communities.
    The President is seeking the same unity of command for intelligence 
and has recently asked Congress to create the position of a National 
Intelligence Director with full budgetary authority. The National 
Intelligence Director will assume the broader responsibility of leading 
the Intelligence Community across our government.
    The President has also announced that we will establish the 
National Counter-Terrorism Center, which that will become our 
government's shared knowledge bank for intelligence information on 
known or suspected terrorist and international terror groups. The new 
center builds on the capabilities of the Terrorist Threat Integration 
Center, and will ensure that all elements of our government receive the 
source information needed to execute effective joint action, and that 
our efforts are unified in priority and purpose.

Intelligence and Information Sharing
    With the introduction of intelligence reform in the interim and 
longer term through proposed legislation, the President took an 
important step to strengthen our Nation's homeland security and further 
demonstrate his resolve in fighting the war on terror. On August 2, 
2004, the President directed his Administration to take quick action on 
reform initiatives that would strengthen the intelligence community and 
improve our ability to find, track and stop dangerous terrorists. Two 
weeks ago, the President delivered on that tasking by signing a series 
of executive orders and Homeland Security Presidential Directives that 
will ensure that the people in government who are responsible for 
defending America and countering terrorism have the best possible 
information and support to identify threats and to protect the 
homeland. These executive orders and Homeland Security Presidential 
Directives are supported by the valuable recommendations made by the 9/
11 Commission, and build upon existing efforts within the 
Administration.
    The first of these executive orders substantially strengthens the 
management of the intelligence community by establishing interim powers 
for the Director of Central Intelligence (DCI). Under this order, the 
DCI would perform the functions of the National Intelligence Director 
(NID), within the constraints of existing law, until the NID position 
is codified in law. Under the President's order, the DCI will be able 
to develop and present, with advice from departments and agency heads, 
the national foreign intelligence program budget. The President also 
provided the Director of Central Intelligence expanded authority to 
coordinate policy within the Intelligence Community (IC). The DCI will 
now develop common objectives and goals that will ensure timely 
collection, processing and analysis of intelligence.Sec. 
    The President's Executive Orders will provide better unity of 
effort in the IC and improved linkage with law enforcement, which will 
greatly enhance our ability to do our job of protecting Americans and 
securing the homeland. The new responsibilities of the DCI will ensure 
that DHS has what it needs from other intelligence agencies and that 
our efforts are properly integrated in the national intelligence 
picture. DHS and other members of the IC will now go to one person who 
will formulate an integrated approach to common goals and objectives.
    In addition, the President established the National 
Counterterrorism Center (NCTC) by executive order. This new center 
builds on the capabilities of the Terrorist Threat Integration Center 
(TTIC), which was created by the President more than a year ago. The 
NCTC will allow DHS to have a better focused intelligence interface, 
building off the successful integration efforts of TTIC. It will also 
allow my Department to have access to a central repository of 
intelligence information. The DHS Office of Information Analysis (IA) 
and the U.S. Coast Guard (USCG) Intelligence Program, as the two 
national IC members within my Department, will participate in the NCTC 
and will continue to engage in support to State, local, and private 
sector officials from a broader knowledge base. Effective July 9, 2004, 
the Departments of Homeland Security, State and Justice together with 
intelligence agencies established the interagency Human Smuggling and 
Trafficking Center as an all-source information fusion center to 
support efforts against the linked national security threats of alien 
smuggling, trafficking in persons and smuggler support of clandestine 
terrorist travel. As the 9/11 Commission put it: ``For terrorists, 
travel documents are as important as weapons.'' An Immigration and 
Customs Enforcement Special Agent is expected to become the first 
Director.
    This centralization is critical to ensuring that all DHS 
intelligence analysts have access to the work of the other IC analysts 
and vice versa. The DHS personnel assigned to the new NCTC will be an 
integral part of the success of the Center and will be the direct link 
to the 13 other IC members' products, personnel, and other resources. 
This open flow of analysis will enable DHS to be better informed 
regarding terrorist threats and intentions, which will make America 
more secure. Only by working cooperatively will our borders be better 
secured, our skies be made safer, and our Nation be better protected. 
The exact impact of the NCTC will not be fully known for some time, but 
all involved members of the IC will work together to make it fully 
functional in the fastest manner possible.
    In addition to the NID and NCTC, the President ordered the DCI to 
ensure we have common standards and clear accountability measures for 
intelligence sharing across the agencies of our government.The 
President established the Information Systems Council to identify and 
break down any remaining barriers to the rapid sharing of threat 
information by America's intelligence and law enforcement agencies, and 
State and local governments. DHS will participate on this Council.
    Within DHS, the Information Analysis and Infrastructure Protection 
Directorate (IAIP) has the lead on intelligence and information 
sharing. At the direction of Under Secretary Frank Libutti, IAIP has 
invigorated the communications with our State, territorial, tribal, 
local, major city, and private sector partners. A guiding principle for 
this effort is that there is more to information sharing than one 
Federal agency talking to another. We must ensure that those on the 
front-lines of homeland security have the best information to safeguard 
our communities and critical infrastructure. To that end, DHS is 
working together with its partners to identify and provide effective 
and workable solutions to our most challenging information sharing 
needs.
    One information sharing initiative I would like to mention is the 
HSIN, which is the umbrella under which various information sharing 
programs fall. One such program, launched in February of this year, is 
the Joint Regional Information Exchange System (JRIES). The initial 
goal was to have all States and major urban areas in America connected 
to DHS by the end of summer. I am happy to say we met that goal. This 
low-cost system provides secure, real-time connectivity in a 
collaborative environment so vital homeland security information can be 
shared among appropriate Federal, State, and local officials. This 
growing system has been very successful and numerous investigations 
have resulted from its implementation. As a key factor in its success, 
it should be noted that this effort is not a federally run system, but 
rather a partnership with State and local officials. This is 
representative of how DHS approaches its mission--only by working as 
partners will we be most effective in securing our hometowns.
    To further integrate Federal efforts with State and local 
officials, the Department of Justice (DOJ) and DHS information sharing 
staffs are working hard to bring the HSIN, Law Enforcement Online 
(LEO), and the Regional Information Sharing System (RISSNET) together 
with the goal of making the systems more compatible, without 
duplicating efforts, as quickly as possible.
    Other HSIN efforts include establishing a Secret-level classified 
system to the States. It also will provide greater connectivity to 
critical infrastructure owners and operators to enhance opportunities 
for two-way information exchange. Surveillance activities by owners and 
operators at their own facilities often garner valuable information to 
identify potential terrorist activity. With the staffing of dedicated 
critical infrastructure sector specialists within IAIP, members of the 
private sector also now receive threat-related information enhanced by 
recommended protective actions, making threat information more 
meaningful and actionable. Through the HSIN system at the local 
community and regional level, private businesses receive alerts, 
warnings, and advisories directly from DHS.
    DHS is also working with its Federal partners to share information 
more effectively. Members of 35 different Federal agencies are now all 
co-located together in DHS's new 24-hour Homeland Security Operations 
Center (HSOC), which allows incoming information coming from various 
sources to be synthesized and shared with other Federal partners such 
as the FBI and the Department of Defense. In addition, since March of 
last year, nearly 100 bulletins and other threat related communiques 
have been disseminated by DHS to homeland security professionals across 
the country.
    Another information sharing capability that was established in 
March of this year is the IAIP National Infrastructure Coordinating 
Center (NICC). The NICC maintains operational awareness of the Nation's 
critical infrastructure and key resources, and provides a comprehensive 
mechanism and process for information sharing and coordination between 
and among government, critical infrastructure owners and operators, and 
other industry partners for 13 critical infrastructure sectors and 4 
key resources. The NICC will be collocated with the Transportation 
Security Operations Center and includes the infrastructure coordination 
activity, the National Communications System National Coordinating 
Center for Telecommunications (NCC-Telecom ISAC), and the National 
Cyber Security Division US Computer Emergency Readiness Team (US-CERT). 
The NICC has the capability to fully integrate activities of ISAC 
partners and other industry and government representatives. Our efforts 
to develop improved information sharing procedures have involved 
cooperation with local DAs as well as our State and local partners.

Building International Partnerships
    Information sharing efforts within the U.S. Government related to 
anti-terrorism are not confined to our Nation's physical borders. We 
have made significant progress, in cooperation with our international 
partners, in the global war on terror. Through bilateral mechanisms and 
multilateral forums, we have sought to share terrorist-related 
information to better secure international travel and trade and further 
impede and deter terrorist exploitation of that system.
    As a key example of these activities, the Department, in 
cooperation with the Departments of State and Justice, advanced the 
Secure and Facilitated International Travel Initiative (SAFTI), which 
was adopted by the President and other heads of state at the G8 Summit 
in June. The SAFTI Action Plan contains 28 specific action items that 
will advance our Nation's security. Among those are efforts to:

        <bullet> Accelerate development of international standards for 
        the interoperability of smart-chip passports.
        <bullet> Develop mechanisms for real-time data exchange to 
        validate travel documents.
        <bullet> Provide effective and timely information exchange on 
        terrorist watchlists or lookout data of participating countries 
        on a reciprocal basis.
        <bullet> Commence sharing lost and stolen passport data to an 
        Interpol database that eventually will allow for real-time 
        sharing of the data amongst member countries.
        <bullet> Develop a methodology for assessing airport 
        vulnerability to MANPADS threats and effective countermeasures.
        <bullet> Improve methodologies to analyze data on passengers, 
        crew, and cargo in advance of travel.
        <bullet> Develop best practices for the use of Air Marshals.
        <bullet> Examine ways to collaborate on the forward placement 
        of document advisors.
        <bullet> Develop robust flight deck security measures.
        <bullet> Expand research and development on biometric 
        technologies.
        <bullet> Enhance port and maritime security through 
        implementation of international standards and compliance with 
        International Maritime Organization (IMO) requirements as set 
        forth in the International Ship and Port Security (ISPS) Code.
    Working with the Department of State and other agencies, Department 
of Homeland Security agencies including the Coast Guard, Immigration 
and Customs Enforcement, Customs and Border Protection, Federal Law 
Enforcement Training Center and others provide training, data sharing, 
help in procuring technology, mutual law enforcement cooperation and 
related assistance to Mexico, other key countries in our Hemisphere and 
around the world. These efforts not only fight terrorism directly, but 
help key countries counter-attack against trafficking in drugs, human 
beings, weapons, money and other crimes that terrorist organizations 
often rely upon. Helping other countries strengthen their homeland 
security is often critical to preventing threats from reaching the 
United States.

Terrorist Financing
    The U.S. government is using the information and intelligence 
gathered about terrorists to destroy the leadership of terrorist 
networks, eliminate sanctuaries found in the support of foreign 
governments, and disrupt their plans and financing. A partnership of 
Federal agencies, led by the Department of Treasury, and working in 
cooperation with the international community, are going after 
terrorists' sources of financing. Together, we have frozen nearly $143 
million in terrorist-related assets, designated 383 individuals and 
entities as terrorist supporters, apprehended or disrupted key 
terrorist facilitators, and deterred donors from supporting Al-Qa`ida 
and other like-minded terrorist groups. America is safer today because 
we have made it harder and costlier for Al-Qa`ida and other terrorist 
groups to raise and move money around the world.
    DHS has a role in these operations through U.S. Immigration and 
Customs Enforcement (ICE). Last year, DHS and DOJ signed a memorandum 
of agreement that greatly enhances the U.S. government's ability to 
wage a seamless, coordinated campaign against sources of terrorist 
funding. This agreement, which established the F.B.I. as the lead 
agency for the investigation of terrorist financing cases, outlines a 
protocol for ICE and FBI coordination of these investigations under the 
auspices of the Joint Terrorist Task Forces (JTTF's). The agreement 
also contains joint vetting procedures that allows ICE and the FBI to 
work collaboratively in determining roles and responsibilities 
regarding these cases. ICE, in turn, continues to play an important 
role in these investigations, utilizing its historic expertise in 
financial crime and money laundering,
    DHS also uses its expertise and jurisdiction in financial crimes, 
money laundering, and commercial fraud, within both ICE and the U.S. 
Secret Service, to work with other Federal agencies and with the 
financial sector to address vulnerabilities that are open to 
exploitation by terrorists and criminals. Addressing these 
vulnerabilities provides yet another layer, or avenue, of defense in 
identifying, preventing, and dismantling groups that seek to attack our 
economic security and undermine our way of life.

Border and Transportation Security
    As noted above, the Administration has worked extensively with its 
international partners to bolster our Nation's homeland security by 
instituting prevention and protection measures overseas. It is 
important to recognize our programs are part of a layered approach to 
security. There is no silver bullet, no single security measure is 
foolproof, and the strategy lies in creating a systems approach, 
starting far from our borders.
    On the commercial side, U.S. Customs and Border Protection (CBP) 
Officers and USCG personnel work with their foreign counterparts to 
instill a security mindset in the international supply chain through 
foreign port assessments and cargo screening through the Container 
Security Initiative. U.S. Officers are operating in 24 international 
ports of trade working alongside our allies to target and screen cargo, 
helping to identify and even inspect high-risk cargo before it reaches 
our shores. Further, with advance manifest information requirements, 
100 percent of cargo is screened through targeting using a set of 
specific indicators. These measures enable risk-based decisions 
regarding prioritizing inspections and use of technologies to inspect 
cargo. This is not only good for security, it is good for trade 
facilitation, allowing expedited treatment for low-risk cargoes, such 
as those shipped by members of our Customs-Trade Partnership Against 
Terrorism program (CT-PAT).
    A holistic view of maritime security includes a robust security 
planning regime. The U.S. worked hard within the IMO to implement the 
ISPS code--it is now in effect, and the USGC issued corresponding 
regulations to put in place a security planning regime for ports, 
facilities and vessels. As a result, new security measures are in place 
at every port in the United States.
    When it comes to foreign visitors, the comprehensive screening 
process begins at our U.S. consulates and embassies overseas, where 
visa applicants at most locations provide two fingerscans and a 
photograph along with their biographic data (By October 26, 2004, the 
Department of State will have this process in place at all locations). 
That personal information, closely protected, is screened against 
extensive terrorist-related information, to which consular officers now 
have direct access. Upon arrival at our air and sea ports of entry, 
these same visitors are matched with their biometric information 
through US-VISIT. US-VISIT will soon expand to cover individuals from 
visa waiver countries as well.
    The 9/11 Commission noted the importance of a strong entry exit 
system. And I want to underscore that point in elaborating on US-VISIT, 
as the implementation of this program is truly one of the Department's 
greatest accomplishments. With the launch of US-VISIT in May of last 
year, we actually commenced the implementation of a comprehensive entry 
exit system, an idea that had languished for decades. US-VISIT, 
particularly including the biometrics component, adds a critical layer 
to our border security strategy. With great leadership from Under 
Secretary Asa Hutchinson and the head of the program team, Jim 
Williams, we have admitted more than 8.5 million people to the United 
States with biometric verification of their identity. This has resulted 
in more than 1,100 watch list matches as of September 9 and the 
decision to deny more than 280 persons admission to this country.
    Our transportation sector is more secure than ever--across all 
modes. We are working diligently with the Department of Transportation 
and State, local and private sector stakeholders to protect critical 
infrastructures and deploy base security measures, as demonstrated in 
the security directives issued to passenger rail and transit operators 
in April. Certainly, the Federal responsibilities in aviation, 
historically and as a result of the 9/11 attacks, focused intense 
efforts on air travel. And, to that end, DHS has put in place a strong, 
layered security regime, upon which we are consistently building. This 
includes hardened cockpit doors on 100 percent of large passenger 
aircraft, vulnerability assessments at over 75 of the Nation's largest 
airports, screening of 100 percent of all baggage, deployment of 
thousands of Federal air marshals, training of thousands of air crew 
under the Federal flight deck officer program, and development of a 
professionally trained screener workforce which has intercepted more 
than 12.4 million prohibited items since their inception. In addition, 
a robust screening system is in place for all international flights 
into the United States, and all passenger names for domestic flights 
are checked against expanded terrorist watch lists.
    We have also recently announced our intention to move forward on 
our plans for a more robust passenger pre-screening system for domestic 
commercial aviation. The Secure Flight program, which will be tested 
this fall and implemented early next year, will enable the 
Transportation Security Administration (TSA) to better compare 
travelers to a list of known or suspected terrorists maintained by the 
Terrorist Screening Center. This list will expand dramatically upon the 
current No Fly and Selectee lists now operated by the airlines and will 
be managed entirely by the government. TSA will also retain a modified 
set of CAPPS I criteria that will provide a better focused layer of 
security, and reduce the number of passengers selected for enhanced 
screening.
    In addition to these strides forward, we continue to seek 
opportunities for continued improvements in our terrorist-related 
screening processes. For this reason, the President issued Homeland 
Security Presidential Directive-11 (HSPD-11) on August 27, which 
directed DHS to lead a Federal Government-wide effort to develop a 
strategy to ensure that an efficient and comprehensive framework exists 
for terrorist-related screening across the Government. The Directive 
requires development of a plan to implement enhanced comprehensive, 
coordinated government-wide, terrorist-related screening procedures to 
detect, identify, and interdict people, conveyances and cargo that pose 
a threat to homeland security. It also calls for the enhancement of 
terrorist-related screening in a manner that safeguards legal rights, 
including freedoms, civil liberties, and information privacy guaranteed 
by Federal law, while facilitating the efficient movement of people, 
conveyances and cargo.
    HSPD-11 builds upon the Department's efforts in this area, as I 
recently directed a review of all biometrics programs within the 
Department with the same goals in mind. The use of biometrics provides 
improved security through application in identity verification, access 
control, credentialing and facilitation programs.
    With continued developments in the area of identification security, 
the President also signed Homeland Security Presidential Directive-12 
(HSPD-12) two weeks ago, to set a common identification standard for 
Federal employees and contractors, which does the following:

        <bullet> Mandates the expedited, public, and open development 
        of a uniform standard for Federal employee and contractor 
        identification that ensures security, reliability, and 
        interoperability;
        <bullet> Closes security gaps and improves our ability to stop 
        terrorists and others from accessing or attacking critical 
        Federal facilities and information systems; and
        <bullet> Improves efficiency among Federal agencies through 
        more consistent systems and practices.
    Secure identification is a priority for the United States. As noted 
by the 9/11 Commission, birth certificates, drivers' licenses, and most 
other forms of identification have traditionally been issued by State 
and local governments, not the Federal Government. There are more than 
240 different types of valid drivers' licenses issued within the U.S. 
and more than 50,000 different versions of birth certificates issued by 
States, counties, and municipalities.
    At the Federal level, we are working closely with our State and 
local partners to find ways to strengthen the standards used to issue 
documents that people use to establish their identity without creating 
a national identity card. DHS has supported the efforts of the American 
Association of Motor Vehicle Administrators (AAMVA) in looking at the 
security of drivers' licenses and strongly supports the States in their 
endeavors to improve the security of these documents.
    When it comes to international travel, significant work has been 
done to combat fraudulent documents through information sharing with 
foreign governments and implementation of key programs, like US-VISIT, 
which use biometric identifiers to mitigate this risk. These efforts 
continue through the background checks conducted by U.S. Citizenship 
and Immigration Services (USCIS) in granting immigration benefits.

Civil Liberties/Privacy
    In all of these initiatives, the President's commitment to the 
protection of civil liberties and privacy is a guiding principle. The 
rights that are afforded not only to Americans but also to those who 
visit and live with us in this great Nation form the foundation of 
American society. Let me say simply that if we fail in this area, the 
terrorists will have won.
    The Department's commitment to these ideals is further demonstrated 
by the appointment of our Officer for Civil Rights and Civil Liberties, 
Dan Sutherland, and our Chief Privacy Officer, Nuala O'Connor Kelly.
    The Privacy Office has made privacy an integral part of DHS 
operations by working side-by-side on DHS initiatives with the senior 
policy leadership of the various directorates and components of DHS and 
with program staff across the Department. As a result, privacy values 
have been embedded into the culture and structure of DHS, ensuring that 
development of DHS programs is informed by thorough analysis of privacy 
impacts. And, once implemented, these programs are effective in 
protecting the homeland while protecting personal privacy.
    The Department also has made the preservation of civil liberties a 
priority, and relies on the Office for Civil Rights and Civil Liberties 
(CRCL) to provide proactive legal and policy advice to senior 
leadership in the Department and its components. For example, CRCL 
worked closely with the Border and Transportation Security Directorate 
to craft positive policy changes in response to the issues raised by 
the DOJ Inspector General's report on the 9/11 immigration detainees. 
CRCL has also developed policies to establish DHS as a model employer 
for people with disabilities and is helping me to implement President 
Bush's recent Executive Order directing that people with disabilities 
be fully integrated into the emergency preparedness effort.
    The President stands firm on the protection of our fundamental 
freedoms and recognizes the importance of safeguarding our civil 
liberties and privacy in the war on terrorism. This was noted by the 
recent establishment, through Executive Order, of the President's Board 
on Safeguarding Americans' Civil Liberties (the Board).
    The Board will ensure that while the government takes all possible 
actions to prevent terrorist attacks on America's families and 
communities, we continue to enhance this commitment to safeguard the 
legal rights of all Americans, including freedoms, civil liberties, and 
information privacy guaranteed by Federal law. It will advise the 
President on government-wide efforts, request reports and otherwise 
monitor progress, and refer credible information about possible 
violations for investigation, and is empowered to seek outside 
information, perspective, and advice. Chaired by the Deputy Attorney 
General, with the Under Secretary for Border and Transportation 
Security of the Department of Homeland Security serving as Vice Chair, 
and other senior officials drawn from across the Federal Government 
with central roles in both the War on Terror and in civil liberties and 
privacy issues, the Board held its first meeting yesterday.

Preparedness
    I am proud to speak of our significant gains in the area of 
national preparedness, particularly since it is National Preparedness 
Month. Throughout the month of September, hundreds of activities are 
planned to highlight the importance of individual emergency 
preparedness. Eighty-five partner organizations and all 56 States and 
territories are sponsoring events to encourage Americans to take simple 
steps now to prepare themselves and their families for any possible 
emergencies. In addition, the public education campaign Ready, and its 
Spanish language version Listo, educates and empowers American citizens 
to prepare for and respond to potential terrorist attacks and other 
emergencies. Ready is the most successful public service campaign 
launched in Ad Council history and is delivering its messages through 
the www.Ready.gov and www.Listo.gov websites, radio, television, print 
and outdoor public service announcements, brochures, and a variety of 
partnerships with private sector organizations.
    Business Ready will be launched later this month to encourage small 
to medium sized businesses to take steps to better protect their 
employees and their livelihood. Also, nearly 1,300 communities around 
the country, encompassing 50 percent of the U.S. population, have 
established Citizen Corps Councils to engage citizens in preparing, 
training and volunteering, including delivering the important messages 
of the Ready campaign.
    In our initiatives to educate the public on preparedness, we have 
had strong partners in the first responder community--those who have 
been on the front lines for a long time. The Department has many 
efforts underway to support our Nation's first responders, particularly 
in the area of training and equipment.
    Since September 11th, the Department and its legacy agencies have 
directly provided nearly $8.5 billion in grants for equipment, 
training, exercises, planning, and other assistance to our first 
responders and State and local partners. This is on top of the billions 
of dollars also provided by DOJ and the Department of Health and Human 
Services. This represents a dramatic increase in funding for State and 
local efforts in prevention, preparedness and response for terrorism 
and natural disasters.
    DHS is improving the way this assistance reaches the end users in 
the communities. Earlier this year, the Department consolidated all of 
its first responder and emergency preparedness grant and assistance 
programs into a single ``One-Stop Shop''--the Office of State and Local 
Government Coordination and Preparedness (OSLGCP). OSLGCP offers the 
State and local government first responder agencies, seaports, rail and 
transit operators, dedicated research institutions, and citizen 
volunteer agencies with a single Federal Government portal for Federal 
assistance for terrorism preparedness.
    Without preparedness standards, the billions of dollars spent on 
these activities would not be the most efficient use of these limited 
resources. Therefore, in December of last year, the President issued 
Homeland Security Presidential Directive-8 (HSPD-8), which, among other 
things, establishes a national preparedness goal. OSLGCP is leading 
this effort and is devising plans to implement the 16 separate actions 
and capabilities identified to improve the mechanisms of administering 
Federal preparedness assistance, preparedness reporting, standards, and 
assessment of our Nation's first responder capability.
    Further, the Department is engaged in significant training 
activities, covering the spectrum of all-hazards preparedness, with a 
special emphasis on terrorism prevention and weapons of mass 
destruction awareness. DHS programs have provided such training to more 
than 205,000 first responders in fiscal year 2004 alone (more than 
450,000 since fiscal year 2002).
    To address the critical communications needs of our first responder 
community, we are developing a new office to coordinate Federal, State, 
and local communications interoperability, leveraging both ongoing and 
new efforts to improve the compatibility of equipment, training, and 
procedures. Incorporated within the parameters of this new office are 
the SAFECOM and RapidCom initiatives. DHS's SAFECOM program provides 
long-term technical assistance to Federal, State, tribal, and local 
programs that build and operate public safety communications, while 
RapidCom focuses on the immediate development of incident-level 
interoperable emergency communications in high-threat urban areas.
    Under DHS leadership, the SAFECOM program has made significant 
progress in achieving the goals of interoperability, including the 
release of the first ever consensus Statement of Requirements for 
Public Safety Wireless Communications and Interoperability.
    I am also pleased to report that as part of the RapidCom program, 
DHS is working with the State and local leadership in New York City, 
the DC Region, and eight other major urban areas to ensure that first 
responders can communicate by voice, regardless of frequency or mode 
during an emergency. RapidCom will ensure that high-threat urban areas 
have incident-level, interoperable emergency communications equipment 
by September 30, 2004. The program will support deployable 
communications capability in these urban areas for an incident area 
approximately the size of the attacks on the World Trade Center towers 
on September 11th. Thus, at the incident area, emergency personnel from 
various regional jurisdictions will be able to communicate using 
existing equipment that is made interoperable by a patch-panel device, 
interconnecting various models of equipment that would otherwise not be 
compatible. In addition to these targeted efforts, interoperable 
communications planning and equipment has been a high priority for 
Federal homeland security assistance to States and localities, 
particularly in high-risk urban areas.
    We have also achieved some tremendous milestones in implementing 
National Incident Management System (NIMS) and completing the essential 
core of the National Response Plan (NRP), which will ultimately consist 
of this base-plan and a number of supporting annexes to be finished 
this year. Required by Homeland Security Presidential Directive-5 
(HSPD-5), issued by the President on February 28, 2003, the NIMS 
ensures that Federal, State, and local governments and private-sector 
organizations all use the same criteria to prepare for, prevent, 
respond to, and recover from a terrorist attack, major disaster, or 
other domestic incidents, regardless of cause, size, or complexity. It 
builds upon well-established principles of the Incident Command System 
(ICS) including the unified command structure to provide organizational 
clarity and a common terminology that facilitates planning, 
coordination and cooperation at all levels of the responding community. 
A NIMS Integration Center, involving Federal, State, and local 
government representation, continues to develop and improve this 
system. DHS plans to conduct research in fiscal year 2005 to develop 
devices to locate first responders, and allow Incident Commanders to 
better understand where their resources are and how they are employed; 
and to provide virtual reality simulation training. The NRP applies the 
incident command concepts to include Federal support to States and 
local governments during disasters. It also establishes a framework for 
DHS to interact with the private sector in preparation for, response 
to, and recovery from terrorist attacks, major disasters and other 
emergencies. It will integrate operations into a seamless system and 
get help to victims more quickly and efficiently.
    Before moving away from the Department's significant preparedness 
activities, I want to mention the devastating hurricanes that have hit 
this country recently. In addition to continuing to send our thoughts 
and prayers to all of the families who have been affected, the 
Department has been on the ground and fully engaged in providing 
emergency assistance. The Federal Emergency Management Agency (FEMA) 
pre-positioned emergency response teams and disaster relief supplies 
throughout the southeast region in preparation for anticipated response 
operations and continues to coordinate Federal response and recovery 
activities with State and local agencies. Further, President Bush 
ordered the release of Federal disaster funds and emergency resources 
for Florida to aid people battered in these disasters, requested 
additional funds from Congress as needed, and we continue to provide 
assistance to those who need Federal support in the wake of these 
disasters.

Oversight of DHS
    The breadth of issues covered in this testimony, while addressing 
many significant activities, does not speak to the entire scope of this 
Department's great work. We have pulled together 22 agencies and 
180,000 employees into a unified Department whose mission is to secure 
the homeland. We are operating as a single unit--one team, one mission, 
one fight. Yet long term integration takes time--and we are daily 
challenged to ensure strong internal organization, as we continue 
building bridges with all of our partners in homeland security.
    As we continue to evolve into a more agile agency, we work closely 
with our partners in Congress. I appreciate the importance of our 
relationship and value the mechanism laid out in the Constitution, very 
appropriately, for Congressional oversight. However, this relationship 
would be significantly improved if there were an effort within Congress 
to reorganize itself, to enable more focus on homeland security, 
facilitate better oversight and ensure an even closer day-to-day 
relationship. Last year we testified before 145 committees and 
subcommittees, briefed members of Congress or committee staffs over 800 
different times and met thousands of requests for information just from 
committee staffs. This year we're already well beyond that. We still 
have pending over 300 General Accounting Office reports and we've 
already submitted at least that number. Again, the Department benefits 
from its relationship with Congress and an intense scrutiny of homeland 
security efforts, but these numbers demonstrate the need for a more 
effective structure.

Conclusion
    We are committed to leading the unified national effort to secure 
America. We have done so--and will continue to do so--by developing 
innovative methodologies to prevent and deter terrorist attacks, and 
protect against and respond to threats and hazards of all types. All 
the while we ensure we maintain safe and secure borders, welcome lawful 
immigrants and visitors, and promote the free flow of commerce. Every 
day, the memories of September 11th inspire us in our efforts to 
preserve our freedoms and secure this great homeland.
    Thank you again for this opportunity to speak with you about the 
Department's activities and respond to the recommendations of the 9/11 
Commission. I am happy to answer any questions you may have.

    Chairman Cox. Thank you.
    The Chair recognizes himself for 5 minutes.
    Mr. Secretary, the department and this committee have both 
worked to make prevention the priority from the outset. That 
meant within the Department of Homeland Security, bringing the 
information analysis portion, the intelligence arm of DHS, up 
to statutory full strength as quickly as possible.
    We knew, because experience had shown us, that if the 
department did not serve state and local and private-sector 
customers, nontraditional intelligence customers, with timely 
and reliable analysis, that possibly nobody else in the federal 
government would or could.
    The intelligence community surprised us, however. By all 
accounts, it did not even serve its traditional national 
security customers, as the 9/11 Commission pointed out. The 
president has noticed; so have voters. And so we find ourselves 
now in a high-stakes, high-speed effort to reform the 
intelligence community.
    About a week ago the White House released its outline of 
the president's own reform proposals. The commission's report 
shows that the undersecretary of Information Analysis and 
Infrastructure Protection in some way answers ultimately to a 
new national intelligence director. The McCain-Shays bill has a 
similar feature.
    I am hoping that you can help us understand at least what 
the department's vision is for how this is all going to shape 
up or how it ought to shape up.
    First, what should be the IAIP role, the intelligence role, 
in the department in terrorism threat analysis? How would the 
president's proposals change the status quo and change the role 
for information analysis for intelligence, as outlined in the 
Homeland Security Act?
    How should IAIP relate to the rest of the intelligence 
community? Should it be the lead federal agency--that is to 
say, should the department be the lead federal agency--in 
conveying terrorist threat information to state, local and 
private-sector officials, as is presently the case in practice 
and under statute?
    And finally, should IAIP continue to be responsible for the 
homeland security advisory system, even under this newly 
reorganized intelligence community plan that we are developing?
    Mr. Ridge. Mr. Chairman, the Congress gave the new 
department a very specific, exclusive mission. And that was to 
take relevant threat information that related to domestic 
threats and use that information to map against the potential 
vulnerability to which the threat was directed, and shore up 
that vulnerability.
    So we take a look at the threat, map it against the 
potential target, and what have we done to reduce the 
vulnerability, to eliminate the likelihood of the prospects of 
being attacked, if it were attacked, to reduce or eliminate any 
damage?
    I believe that mission is and will remain one of the most 
strategic pieces, one of the most strategic roles that the new 
department would play.
    However, under the configuration, as I have read it, of the 
9/11 Commission, the relative bills, the president's own 
initiative, the strategic threat assessment relating to the 
homeland would be done under the auspices of the national 
counterterrorism center. It would be doing strategic threat 
assessment for both foreign and domestic.
    That does not mean that we relocate all our analysts. We 
are still going to be assessments. We will still be providing 
competitive analysis.
    So I think, clearly, the mission that you, the Congress, 
specifically gave us is compatible with the reorganization that 
is contemplated by the pieces of legislation.
    I also believe that under any restructuring, IAIP should 
still have the primary and the sole responsibility to deal with 
the homeland security advisory system. Again, specific 
responsibility by statute. We undertake it. I think it is a 
system that is working, and nothing conflicts in any of the 
existing proposals with that mission.
    The third question you asked, however, I think is one that 
will need to be addressed, if not in the legislation, but 
sometime thereafter. And that is, who is to channel the threat 
assessment and these kinds of information down to the state and 
local partners?
    We are talking about the integration of the country. We are 
talking about improving information sharing side by side within 
the federal government, but from top to bottom, federal, state 
and local.
    We know that historically the FBI has done that with the 
law enforcement community. And we have built up, for the past 
two years, strong ongoing daily relationships, interaction, 
with the states and local communities through bulletins and 
advisories, most of them submitted with the support and 
collaboration of the FBI and with the Homeland Security 
Information Network, with a series of calls, hooking up our 
operations centers and secure videos to the states and the 
locals.
    So again, one of the challenges we will have, I believe, no 
matter how we reconfigure the national intelligence director 
and the national counterterrorism center, is to hopefully 
minimize the number of means of communication down to the state 
and locals, so they are not getting disparate messages from 
multiple federal agencies about the same thing.
    Again, that is a real challenge, and we think we are, 
obviously, the agency that is best suited to work in 
conjunction with the FBI to deliver that information.
    Chairman Cox. The gentleman from Mississippi is recognized 
for 5 minutes.
    Mr. Thompson. Thank you, Mr. Chairman. I will not take up 
the entire 5 minutes.
    Mr. Secretary, you are aware of the lack of inspections of 
chemical plants and the fact that we do not have any real 
security standards for our chemical plants at this point.
    Is there a reason why we have not taken stronger mandatory 
measures to protect chemical facilities up to this point?
    Mr. Ridge. Congressman, to your point, there have been no 
mandatory measures that have been taken, but there have been 
many initiatives undertaken in conjunction with the chemical 
industry and hundreds of millions of dollars invested to add 
security and prevention.
    You are absolutely right. We literally have thousands and 
thousands of chemical facilities around the country. Within the 
unit of infrastructure protection, I dare say it is one of the 
top, if not the top priority.
    And what we have done is take a look at these facilities 
and, by and large, provide the homeland security adviser of 
each state, as well as the operators of the facilities, certain 
documents and planning tools as we beef up security.
    Characteristics and common vulnerabilities: Some of them 
have--many of them have the same kinds of vulnerabilities. So 
in a certain extent, one size does fit all.
    We have given them indicators of what the might look for, 
potential terrorist activity in terms of surveillance, 
reconnaissance, mindful of their need to limit access to 
critical areas within their facilities.
    And we have also given them buffer zone protection plans so 
they can begin working both internal, inside their operations, 
and external, outside the community, to protect these 
facilities.
    And in time, as these have all been distributed and we have 
begun working with some of the largest and most critical 
companies to see that the vulnerabilities are assessed and the 
buffer zone protection plans are put into place, and then 
working with the state, and particularly the local police and 
fire chiefs, go in and confirm that the vulnerability gaps have 
been closed and the buffer protection plans have been put in 
place.
    But we still have a long way to go, Congressman. There are 
thousands of those facilities out there. But we, frankly, 
started with those closest to the most densely populated areas 
that have the greatest potential for harm if they were turned 
from an economic asset into a weapon.
    Mr. Thompson. Thank you, Mr. Secretary.
    Of those thousands of facilities you mentioned, how many do 
you have knowledge that your department has actually visited?
    Mr. Ridge. I believe your earlier comment with regard to a 
couple dozen is probably correct. I will get that number back 
to you.
    I think one of the challenges that we have is to 
understand, one, that there are common vulnerabilities among 
many of them; and, two, we are going to rely heavily upon those 
first responders at the state and local level to help us make 
some of these assessments and help us ensure that the buffer 
zone protection plans are put into place.
    After all, these are the men and women who are going to 
respond to it in the first place. And there have been a lot of 
initiatives that they have undertaken as well.
    So I can get back to you with a specific number that we 
have visited. But, again, part of our challenge in trying to 
deal with thousands and thousands of chemical locations, is 
building a standard, at certain levels, for protection. And 
that is our first effort, to create a standard of best practice 
for certain facilities that we want to see adopted across the 
board.
    To date, the chemical industry estimates they have invested 
about three-quarters of a billion dollars in security measures. 
I am not in a position to confirm it. But we are aware that we 
have gone into some of these chemical facilities where 
literally there have been hundreds of thousands of dollars 
worth of investments made.
    Mr. Thompson. So is it your department's belief that the 
voluntary approach to working with chemical plants is working 
and it is better and having a mandatory situation with the 
chemical plant?
    Mr. Ridge. Until such time as Congress mandates a specific 
approach, we will continue to work in collaboration not only 
with the chemical companies, but in collaboration with the 
first responders, who are the ones who are going to be called 
in the event something happens in that community, to see that 
the best practices are adopted and the appropriate investments 
are made.
    And we will continue to prioritize within all of these 
chemical companies and go out and personally visit and 
personally oversee the development of the protection zones 
around those, and just work our way down the list with the help 
of state and local first responders.
    Mr. Camp. [Presiding.] The gentleman's time has expired.
    Mr. Secretary, the need to improve border security and have 
a national strategy for the management of our border has been 
evident for some time, for decades, some might say. And your 
testimony goes to improvements that have been made in 
bringing--
    Mr. Dicks. Will the Chairman yield just for a point of 
inquiry?
    Mr. Camp. Yes.
    Mr. Dicks. Are we going to go vote at the end of the 
Chairman's--
    Mr. Camp. We are going to continue to stay in session, and 
the Chairman has gone to vote and will come back, and we will 
continue to move forward. We are going to continue to question 
during the vote.
    There are 10 minutes of debate, we think, on a motion to 
recommit. And we will continue to question as long as we can 
during the votes.
    Ms. Jackson-Lee. What time--
    Mr. Camp. I believe the Chairman said he had to leave at 
4:30.
    Ms. Jackson-Lee. Okay, thank you.
    Mr. Camp. Thank you.
    Thank you, Mr. Secretary.
    In your testimony, obviously we have a lot of improvements 
that we need to make at our border. Your testimony goes to some 
of the changes in bringing travelers and cargo into the U.S. 
more safely. And as the chairman of the Subcommittee on Border 
and Infrastructure, we have had a lot of hearings on the 
progress that has been made there.
    But my question is this: In a single day--and there is a 
recent article in Time magazine that is coming out highlighting 
this--in a single day, more than 4,000 illegal aliens cross the 
375-mile border between Arizona and Mexico, every single day. 
And as the article indicates, there are no searches for 
weapons, there is no shoe removal, there are no ID checks.
    Where are we in stopping that, and where is this 
administration on that specific issue?
    Mr. Ridge. Well, first of all, I am familiar with the 
article and regret that, at least to my knowledge, there was no 
effort to contact the department that has some statistics that 
might have been helpful to the author and to highlight some of 
the changes that we have made over the past 18 months.
    Having said that, I am not in a position to confirm any of 
their statistics, one way or the other. I am in a position to 
tell you, however, that we have got, because of congressional 
bipartisan support, we have got about 1,500 more agents, border 
patrol folks down there than we did before.
    We are not using unmanned aerial vehicles to get us to 
places where heretofore it has been pretty difficult for the 
border patrol to get to. We have adjusted our tactics 
accordingly.
    We have heightened particularly our effort in the areas 
that had previously been very, very porous. That is the Arizona 
Border Patrol Initiative where we continue to pick up, I think, 
probably 50 percent more people than we did in previous years.
    And there is a list of initiatives that we have taken at 
the border that were not reflected in the article. I am not 
going to say to you, Mr. Chairman, that the border is no longer 
porous, there are no longer illegal immigrants coming across. 
But in the span of 18 months, between more technology, more 
sensors, more border patrol agents, and frankly a better 
integration of effort, I think we are doing a lot better job in 
the past 18 months than we probably did in the past 18 years.
    We have still got more work to do, though. I am the first 
one to admit we still got more work to do.
    Mr. Camp. Thank you, Mr. Secretary.
    I am going to yield the rest of my time to Ms. Dunn.
    Ms. Dunn. [Presiding.] I thank the gentleman.
    We are, as you can see, racing back and forth for votes. 
Has the gentlelady from Washington, D.C., asked her questions, 
or would you like to ask your questions now?
    Yield 5 minutes to the gentlelady from Washington, D.C.
    Ms. Norton. Thank you, Madam.
    And thank you, Secretary Ridge, for your important work for 
our country.
    There is a growing sense of many of us that we may be 
fighting the last war, and I encourage you to continue to fight 
the last war, because I know that is not over yet.
    I would like to ask you about two very large 
vulnerabilities that some of us see as perhaps part of the next 
war which we would not like to see. One is protection for the 
much larger private sector of our country, the business sector, 
that produces the resources and revenue. And the other is about 
mass transit and rail.
    This city is typical of large cities, with its official 
sites protected and fortified, but most large cities have very 
small official sectors and huge business sectors. So, first, as 
to the private sector, you endorsed before the 9/11 Commission 
the national standards for the private sector. But you said you 
objected to the inclusion of such standards in a bill that has 
been introduced, and I was one of the sponsors of that bill.
    I am talking about NFPA-1600. You say you objected to it 
because there should be a number of different kinds of 
standards to draw on. Then you seem to end up saying that the 
NFPA-1600 would be a good starting point, additional standards, 
guidelines and best practices.
    So are we reading from the same script here? Because far 
from pinning you down, all that this bill said was--it began, 
just as you say, you believe we should, with the American 
National Standards Institution and National Fire Protection, 
then it says, you know, anything else--and it says existing 
private sector emergency preparedness guidance or all best 
practices.
    And the reason I ask it is that we are sitting here with a 
wide-open federal sector. We went to your Web site and could 
not find anything on the Web site that gave guidance to the 
business sector, to the private sector.
    And so I want to ask you when such guidance will be coming 
forward, particularly since you objected to the bill which I 
think would do exactly what you testified before the 9/11 
Commission you would be doing.
    And then, about rail security, just let me say how 
completely fearful I am about rail and mass transit. That is 
where the people are, Mr. Secretary. I went to a rail hearing 
here, sat in on a rail hearing here. And I was just astounded.
    Somebody from your department and somebody from the Federal 
Railroad Administration were both there. I could find no locus 
for who deals with rail and mass transit security in our 
country, no assessments going on, no national standards or 
plans even being thought of by these two officials.
    I did not expect something comparable to aviation, but it 
is very frightening to think that people get on Metro, get on 
the subways in New York, get on railroads, that there is no 
funding and not even any guidance in these two sectors.
    And the private sector is one, the mass transit sector is 
the other. And if you wanted to ask me where the American 
people are, it would not be on the airplanes, where we are 
beginning to fight the good fight, it would be on these two 
sectors which I believe are almost completely uncovered.
    Ms. Dunn. I remind the gentlelady--excuse me, Secretary 
Ridge--that there is only 1 minute left for the reply of the 
director.
    Go ahead.
    Mr. Ridge. Let me respond, Congresswoman.
    First of all, I would like to personally get back to you, 
because the standards that I have endorsed before the 9/11 
Commission, if it was communicated to you that somebody opposed 
them, I need to find that out, because I do not.
    But I would like to get back and deal with issue 
personally, because it was a voluntary standard, very 
appropriate for the private sector to review and certainly a 
strong recommendation on behalf of the 9/11 Commission. I stand 
by how I testified before the 9/11 Commission. So I will get 
back to you on that.
    Ms. Norton. Thank you. Because they have endorsed what you 
have said.
    Mr. Ridge. Absolutely. And I think endorse what you are 
saying. I mean, the point of it is, we throw some standards out 
there, get the private sector engaged.
    But you should also know that pursuant to our mission in 
infrastructure protection, as well as a presidential directive, 
we are presently working on sector-specific protection plans. 
Transportation is included as one of them. But this is across 
the entire private sector arena: transportation, financial 
services, chemical.
    Now, because we are working on a national strategy dealing 
with each of these sectors, does not mean that we are not 
taking steps now to add additional layers of security in those 
sectors; for example, mass transit.
    As you know, we are running pilot programs with regard to 
explosive technology on both passengers as well as baggage 
along with Amtrak's route. We are also running some pilots on 
biological and chemical sensors that certainly, in time, 
potentially would be deployed both within the units and 
elsewhere along the mass transit line.
    We also know that we put in more canine teaMs. And a lot of 
the local communities, with our support, have more plain 
clothesmen and uniformed police providing greater security.
    We also know that on a matter of course the railroad and 
mass transit companies, on their own volition--because they are 
partners in this--often go out and review their infrastructure, 
go through certain tunnels or review the bridges for safety and 
security purposes.
    So there is a good partnership developing. And we will have 
by the end of this year a national transportation security 
plan, which will build on, hopefully, some of the technological 
advancements that we make, some of the initiatives that have 
already been undertaken.
    So I think, to your point, I will get back to you on the 
voluntary standards. Please know that we are required by 
presidential directive, as well as part of the mission the 
Congress gave us to come up with sector-specific protection 
plans. We are doing that across the country.
    And by the end of the year we are also obliged to have a 
critical infrastructure database. We are working with homeland 
security advisers in all the states and territories to list 
critical assets, many of which could be if they were destroyed 
could turn into weapons and others destroyed would have 
enormous economic and psychological impact.
    So, again, all that is a work in progress.
    Ms. Dunn. The gentlelady's time has expired.
    My intent is not to cut off either of the speakers; it is 
to provide an opportunity for each of the folks on both sides 
to be able to ask questions.
    I now yield to myself 5 minutes for the purpose of 
questioning.
    Secretary Ridge, the 9/11 Commission report put a spotlight 
on some of the inefficiencies in congressional oversight. I 
think this is a very good time for us to look at our own 
responsibility and our effectiveness as an oversight body and 
take advantage of the increased will that we see coming out of 
the 9/11 Commission when it comes to reforming what our 
responsibility is.
    Do you agree with the 9/11 Commission report that there 
should be a permanent oversight committee in each body of the 
Congress?
    Mr. Ridge. I certainly would appreciate the reduction in 
number of oversight committees. Whether or not in the wisdom of 
the leadership and the consensus of the bodies in the House and 
Senate, you could reduce it from 88 to one in each, I will 
leave it to you. But it is pretty clear from our perspective, 
just based on our very appropriate interaction with Congress.
    You have got the congressional oversight responsibility. We 
look to you for the appropriations. So we have to build this 
department. There has to be a partnership. I happen to think if 
there was more concentrated emphasis on oversight, we could 
have a more effective relationship.
    To give you an example, Madam Chairman, this year so far 
the secretary, the undersecretary and the assistant secretaries 
generally have appeared nearly 160 times at hearings. They have 
been involved and many of our staff have been involved on the 
hill over 1,300 times for briefings.
    And literally we have hundreds and hundreds of General 
Accounting Office inquiries. And you know those are enormous, 
labor-intensive responses that we have to provide, 
understandably. So anything that the House will do to reduce 
not the intensity of the oversight, but the number of 
committees and subcommittees to which we report for oversight 
would certainly, we think, improve the effectiveness of our 
interaction and frankly make us a stronger department and more 
secure country.
    Ms. Dunn. Do you think that the committee you are 
testifying before today has been useful to you in terms of 
advising you and working with you to protect our country?
    Mr. Ridge. Yes. We have had a good interaction. And, again, 
how the leadership in both chambers decides to allocate those 
responsibilities, we have got to leave it to them.
    But and I would say to you in response to some of the 
concerns that some of your colleagues have, I am prepared to 
stay a little longer. I do want people to get a chance to ask 
their questions. I have sat on that side of the table myself 
and appreciate that. I will do as much as I can to accommodate 
the interest of colleagues on both sides of the aisle.
    Ms. Dunn. Thank you very much. We appreciate your 
sensitivity.
    Let me ask you a general question. What would be the two or 
three first things you would do or you would wish accomplished 
if there were unlimited funds and time and staffing?
    Mr. Ridge. Much of what I would hope we could accomplish 
will not be driven as much by money as it will be by science. I 
mean, I think there are a lot of gaps and weaknesses out there 
that science and technology may help us fill. And Congress has 
been very, very generous in that regard.
    I suspect, because there continues to be concern about the 
borders and concern about immigration and concern about matters 
related to that, that at some point in time there would be 
additional dollars appropriated for enforcement. But that would 
require, I think, not only looking at the enforcement side, but 
what the policy might be relative to our borders.
    Ms. Dunn. In the early days of the Department of Homeland 
Security--and actually up to the current time--there has been 
discussion about TTIC, where it belongs, who should be 
overseeing it.
    Are you satisfied with the fact that TTIC is now housed 
with the CIA, or would you rather have that under the 
Department of Homeland Security?
    Mr. Ridge. We were not initially looking to acquire more 
responsibility, inasmuch as we are just trying to integrate the 
responsibilities we had. And it just seems to me that that 
question has been answered by the embrace of the 9/11 
Commission, Congress and the president of the national 
counterterrorism center.
    I think basically that threat integration center has 
evolved and is evolving into the national counterterrorism 
center. And as defined by the president and the role it would 
play according to the president's proposal, frankly, it would 
provide us probably even better integration of foreign and 
domestic threat information that we can apply to our role to 
reduce vulnerabilities and secure the country.
    So it is a moot point, Madam Chairman. I think the national 
counterterrorism center is where the strategic threat 
assessment will go, and we are quite comfortable with that.
    Ms. Dunn. All right. Thank you very much, Mr. Secretary.
    The Chair now yields 5 minutes to the gentleman from 
Washington, Mr. Dicks.
    Mr. Dicks. Mr. Secretary, good to see you back on the Hill.
    I am very concerned about one subject. Out in our part of 
the world, port and container security, is a major issue for 
the port of Seattle, Port of Tacoma. The Chairman has the port 
Los Angeles.
    As you know, the Coast Guard estimated last year that the 
ports need to make about $1.5 billion worth of improvements in 
the near term and roughly, $7.3 billion over 10 years to meet 
the security standards set by the Coast Guard, as instructed by 
Congress in the Maritime Transportation Security Act.
    The administration's budget since September 11th have 
requested only $46 million for port security.
    And although Congress has provided additional money, there 
remains a billion-dollar funding gap to meet the immediate 
needs identified by the Coast Guard.
    The House approved $125 million for port security grants 
this year.
    But even that figure leaves us well short of where we need 
to be to ensure the security of our ports.
    And as you remember, just a year or so ago, there was a 
lock-out on the West Coast of our longshoremen. And that 
immediately had economic implications. And if we ever got into 
a situation, heaven forbid, that a dirty bomb came in on one of 
those containers, was shipped to Chicago, it explodes, 
contamination spreads, there would be a problem, I think, 
bringing these containers into the ports of Tacoma, Seattle, 
Los Angeles and the other West Coast ports, with serious 
economic repercussions.
    Now, in light of that, I am concerned that we are still not 
putting enough money into port security and container security. 
We are also told that the number of people going abroad--a 
little group of five goes over for 120 days to get set up for 
the container inspection program and that the professional are 
telling us that that is not long enough to get the job done at 
these foreign ports. And I agree that we have to do this. But 
let us try to make this effective.
    Can you address these issues for me?
    Mr. Ridge. Yes, Congressman, I would. Thank you.
    Our ports, appropriately viewed as a potential point of 
vulnerability, have been the highest priority within the Coast 
Guard. Obviously, they are the point of the sphere when it 
comes to maritime security. But they have worked in partnership 
with Customs and Border Patrol.
    And we try to do, once we have identified vulnerabilities, 
you try to lay in multiple layers, multiple systems so that you 
do not have a single point of failure. And so then in our job 
to manage the risk, we do it several different ways.
    You correctly pointed out that we begin that whole process 
with the Container Security Initiative, where today as you and 
I are having this conversation, we have DHS employees either 
working or on their way to 25 ports overseas where we work with 
our allies to use X-ray equipment to, once we have located and 
targeted high-risk cargo.
    The high-risk cargo is identified through a very, very 
sophisticated operation, based on kinds of data that is being 
accumulated by Customs. We know a lot about ships; we know a 
lot about shippers; we know a lot about ports.
    And every shipping container is required--everybody sending 
a container on a vessel to the United States electronically 
must send a manifest to us 24 hours in advance. If we do not 
get it 24 hours in advance of loading, it is not loaded.
    So we know we get that. We have had about 1,000 do-not-load 
orders, and they just sit on the side, regardless of the 
contents, because you did not comply with the regulation.
    Once we take a look at that, we have identified about 6 
percent of these as high-risk cargo: there was something about 
the ship, the shipper, potential content, an anomaly in the 
manifest. There is an algorithm we put together, and we change 
it all the time.
    To give you an example, we had once situation where the 
manifest said frozen fish, obviously a commercial product, 
should be distributed from the Pacific to Central or South 
America. But we also had the ship registered on the manifest, 
and we knew it was not a refrigerated ship.
    Obviously, we opened it, and found hundreds of thousands 
dollars worth of illegal weapons.
    So just an anecdote, but 100 percent review of the 
manifest. High-risk cargo, we X-ray over there. The ship moves 
to the United States, we pick up more information about 
passengers and crew. The National Targeting Center vets the 
passengers and crew. And sometimes for intelligence purposes, 
in response to intelligence, we will board vessels before they 
come into the United States. And then there are security 
protocols in our states, as well.
    Congress said to the Coast Guard: You need to come up 
security plans at every port. One size does not fit all. You 
need to sit down and work with the private sector to develop 
your vulnerability assessments and bring in security measures.
    Mr. Dicks. But, Mr. Secretary--
    Ms. Dunn. The gentleman's time has expired.
    Mr. Ridge. I am sorry to be so long-winded, Congressman.
    I think the original estimate was correct, but it did not 
say the government necessarily has to pay for it. The 
government is spending billions and billions and billions of 
dollars on port security. It is not as if you have too many 
companies that cannot afford a little more money to help secure 
part of their distribution chain. It is a debate we need to 
have. But I do not think it is fair to say that the federal 
government is not contributing significantly to the security of 
our ports. We are.
    Ms. Dunn. The gentleman's time has expired.
    The Chair yields 5 minutes to the gentleman from 
Connecticut, Mr. Shays.
    Mr. Shays. Thank you.
    Mr. Ridge, you have done a very fine job in a very 
difficult position. I have a number of questions. I would like 
some shorter answers just to cover them as long as you feel 
like you can answer them.
    One, I would like to know what the public's right to know 
is when we issue a threat. If we know, for instance, that a 
particular city is targeted, does the public have a right to 
know that?
    Mr. Ridge. When we have had credible information, as we did 
about a month ago with regard to a particular community and 
particular sector in the community, we made it public.
    Mr. Shays. And is that the consistent policy of the 
administration?
    Mr. Ridge. Yes. I must tell you that that was made public. 
There are times when we get threat information, the credibility 
of which may be questionable or undetermined--
    Mr. Shays. Okay, I understand.
    Mr. Ridge. --and then we will let those folks--
    Mr. Shays. How about with cargo? That is not baggage on a 
passenger plane. Do you think the public has a right to know 
when cargo is on a plane that is not checked the same way that 
baggage is checked?
    Because 23 percent of all cargo goes in passenger planes. 
Does the public have a right to know when there is cargo on a 
plane that is a passenger plane?
    Mr. Ridge. The public has a right to know the security 
protocols that we have undertaken in order to manage the risk 
of the cargo in the hull. They have a right to know that we 
have got a known shipper program. They have a right to know we 
have got random inspections, but we do not inspect every single 
item that is in the hull.
    They have a right to know we do background checks on crew 
members and employees have access to it. They have a right to 
know that we are working on explosive--
    Mr. Shays. So the answer is kind of no, though, I am 
gathering from you.
    Mr. Ridge. I think--
    Mr. Shays. No, I mean, I would like to know if 50 percent 
of the cargo on a passenger plane is not checked the same way 
baggage is. I would want to know that. And I know that you 
believe--
    Mr. Ridge. Yes.
    Mr. Shays. --believe that the known shipper is important. I 
do not think it covers my need.
    Are you concerned about the assassination of any public 
official during this campaign season? There has been a lot of 
talk about this. Is there dialogue? Is there any threat that 
public officials are being targeted?
    Mr. Ridge. The most frequent position mentioned in any 
threat reporting, and I dare say it is probably been historic, 
regardless of the administration, has been the president of the 
United States. But other than those threats that we get on a 
regular basis, and I dare say probably always have and always 
will from time to time, I do not believe there is any other--
    Mr. Shays. What is the most important recommendation of the 
9/11 Commission, one or two of them, from your perspective, of 
homeland security?
    Mr. Ridge. The direction to the national intelligence 
director to do everything they can to make sure that the 
information is necessary for both federal agencies, but the 
state and locals to help secure America is shared quickly and 
effectively.
    I think one of the most important responsibilities of this 
new national intelligence director is to ensure that 
information sharing continues to improve, and that, frankly, we 
go back over the old war, Cold War classification of 
information and the handing caveats that are attached to it, to 
scrub them to see if they are relevant in combating terrorism. 
Because I do think we need to get more information down to the 
state and locals.
    Mr. Shays. I would like to ask you, with the time I have 
left, what you think your biggest success is and what your 
biggest disappointment or biggest failure has been to date.
    Mr. Ridge. I believe in totality gaining greater control 
over our borders from land, sea and air has been a significant 
accomplishment, and it has been done within the department with 
a lot of assistance from the federal agencies. Not the greatest 
disappointment, but the greatest challenge that it is still 
going to take us years to deal with is the integration of all 
the databases that we have to enhance that ability to protect 
ourselves at the border.
    We have the US-VISIT that is connected to multiple 
databases. But integrating all of that and then frankly the 
integration of broader information resources in time is I think 
the biggest challenge. Not a disappointment, it is just the 
greatest challenge.
    Mr. Shays. Thank you for your responses.
    And thank you. I yield back.
    Ms. Dunn. The Chair yields 5 minutes to the gentleman from 
Massachusetts, Mr. Frank.
    Mr. Frank. Mr. Secretary, in the immigration area, one of 
the things that struck me about the commission, they quite 
explicitly said in a staff report that the problem with people 
coming into this country who are dangerous is not the legal 
authority to exclude bad people, but the difficulty of 
administering that.
    Would you concur with that? Do we need to change the 
substantive law or do you now have in the department sufficient 
legal authority to keep people out; the problem being of course 
you do not always have the evidence right at hand, et cetera?
    Mr. Ridge. I would dare say that I believe like any older 
statute, Congressman, Immigration and Naturalization Act is 
probably in need of review and modification, but there are 
basic authorities within that statute that are probably eternal 
that could be the basis for more rigorous enforcement.
    Mr. Frank. Okay. The current law was redone in 1996, so it 
is not quite as old as some of the other things around here. 
But you are not aware of a major need to amend the law to 
tighten up your ability to exclude?
    Mr. Ridge. That is a fair question. Not at this point, but 
we do have people with Citizenship and Immigration Services 
reviewing this statute for me presently. I cannot tell you 
today, but I might tell you tomorrow.
    Mr. Frank. Actually, the commission staff report referred 
to what they said was the myth that the murderers of September 
11 came in legally. And the answer they said was, no, they were 
not. It was not that the law was not inadequate.
    I would be interested in that review. The Civil Liberties 
Board, I am glad to see the Civil Liberties Board that you 
referenced--and I appreciate the fact that the commission 
called for it. I think it is very important, we have this need 
to give law enforcement more vigorous powers. I think that is 
virtually, unanimously agreed to when you are dealing with 
people willing to kill themselves to kill others.
    But commensurate with that, you need to have better 
supervisory authority. And with the best one in the world, we 
have seen mistakes that were made by law enforcement.
    Here is my problem with the board, the board that is 
supposed to monitor what is done by, presumably, the Justice 
Department, the Department of Homeland Security and et cetera: 
It is a board that is composed of all the people that it is 
monitoring. It is entirely self-policing. It is kind of the 
like the House Ethics Committee. And that does not give me a 
lot of hope that it is going to be all that effective.
    It is chaired by the deputy attorney general, the 
undersecretary for border and transportation security. 
Shouldn't we have some independence built into this? I mean, it 
is not a case of people being bad people, but it is very hard 
if you are in charge of an operation and you are in charge of 
these people, being given the supposedly independent authority 
to supervise them goes against what we know about human nature. 
Wouldn't we be better off if we were able to have at least some 
independent capacity here?
    Mr. Ridge. Well, first of all, I think you know that 
whatever their deliberations or activity they take, it would be 
done in a very transparent way. So all those organizations with 
whom we work, who represent groups--frankly, they represent 
America's interest in protecting privacy and civil liberties 
and freedom, will have access to that information.
    And, frankly, the make-up of that commission, I believe, 
exists primarily to establish a culture of privacy and 
awareness of that within the federal government. And they have 
plenty of opportunity for external groups to influence that--
    Mr. Frank. Well, I appreciate that about the culture. But I 
guess I disagree that having the external groups just be able 
to influence them. I mean, they can do that now. The notion of 
a board does, generally, suggest some independence from the 
agencies.
    The inspector general have given, for instance--the 
inspector general's department has more independence from the 
department's normal operation than this board would. And I am 
troubled by there being no--it really is people appealing to 
themselves and governing themselves. And it does not mean that 
they are, as I said, weak-minded or not committed, it is just 
very hard to wear two hats, to be the people running the 
agency.
    I mean, we are talking about the deputy attorney general 
and the undersecretary. These are people who help run the 
agency, and then they say, ``Okay, now we are through running 
the agency, we are going put on our hat of monitoring the 
agency.'' And I am just not persuaded that is easily done.
    Mr. Ridge. Well, hopefully, at least, you are persuaded 
that, at least from your perspective, it is a very important 
first step for us to recognize what the Congress did as it 
relates to homeland security.
    You created that privacy officer with homeland security. 
And you created a mechanism within homeland security through 
that privacy officer that we have empowered whenever we begin 
to discuss anything within homeland security, Congressman, that 
has any impact on privacy or civil liberties, one or both of 
those individuals are brought in.
    Mr. Frank. Are they on the board?
    Mr. Ridge. This administration--yes.
    Mr. Frank. Are the privacy officers--
    Mr. Ridge. Yes, yes.
    My recollection, Dan Sutherland, whose our civil liberties, 
and Nuala O'Connor, who is our privacy officer, will be part of 
that board. And I will tell you, the first time we had it 
tested in terms of monitoring our own process is when we had to 
deal with the European Union that had serious privacy concerns 
about our use of their passenger name records. They took a look 
at our process and procedures--
    Mr. Frank. But that proves my point because you had an 
independent entity there, the European Union, that was able to 
assert that privilege--their concerns. I do not see anything 
comparable if we are entirely domestic.
    Mr. Sweeney. [Presiding.] The gentleman's time has expired.
    Mr. Secretary, welcome. Thank you for being here.
    I have very little time because we are running out of time 
on a vote. But I wanted to get to a specific question I have 
asked you about in appropriations before.
    And as you know, I have spent the better part of the last 
year with others--Mrs. Lowey and other folks--trying to get a 
threat-based funding formula passed through Congress.
    We asked the 9/11 Commission to consider the change. They 
made it part of their recommendations. Their quote was: 
``Homeland security systems should be based strictly on an 
assessment of risks and vulnerabilities.''
    In this committee, an underlying first-responder bill has 
such a formula in place. There is a separate free-standing Bill 
that make threat, vulnerability and consequences the formula 
change.
    You retain significant authority, regardless of what we are 
able to do or not to do here in Congress. And if we do not pass 
such legislation in this next cycle, I am interested in hearing 
what recommendations you would make, what changes you could 
make to really ensure that the federal resources and funds are 
really getting to those places that are most threatened.
    And I hate to do this, because of the appearance of a ``New 
York verses everybody else'' proposition or a ``rural verse 
urban'' proposition. But I come form the 32nd largest rural 
district in America, and I do not think that is relevant at 
all.
    It really is not about New York. But New York is obviously 
a very threatened place. And we seemingly are going backward in 
terms of what resources we are able to send them. For example, 
in fiscal year 2003, we sent a total of $312 million. New 
York's expenses were somewhere in the range of one billion 
dollars. We recognized that the federal government is not going 
to be able to cover everything for any particular jurisdiction. 
But that was the best we ever did. In 1994, it receded to about 
$183 million.
    Your Department, because you have political pressures, and 
I think there is a valid recognition of need in a lot of other 
places for some minimal level, of preparedness, has essentially 
taken the high-threat fund that we established in the 
supplemental in 2003 and really deluded it at the expense of 
what I believe are the seven or eight jurisdictions that face 
the greatest threats.
    I am wondering if you have alternative plans in mind. What 
authorities would you use to ensure that those resources are 
going there? Because Mayor Bloomberg, in New York, as other 
big-city mayors have told me, they cannot sustain their level 
of security without bankrupting their jurisdictions.
    Mr. Ridge. Congressman, I think the president outlined a 
compromise between the ideal and the real. The real is a 
recognition that within Congress, it is unlikely that we will 
get away from some kind of formula that effectively distributes 
a certain number of dollars to every state.
    And I think one can make an argument, a persuasive one, 
that every state is entitled to some modicum of support to 
build up an internal capacity, just given the random 
unpredictable nature of terrorism.
    However, as the president indicated in the 2005 budget 
submission, we would prefer to see a substantial number of 
those dollars removed from the funding formula side to the 
urban area security initiative side, where on an annual basis, 
not just population comes into the formula, but a 
vulnerability, critical infrastructure protection and threat.
    There is a certain fluidity to both the threat and the 
vulnerability. As communities and private sector companies have 
built up the security and preventive measures around their 
infrastructure, the vulnerability is reduced, the possibility 
of attack is reduced, perhaps the level of threat is reduced.
    Mr. Sweeney. Is that the case in New York?
    Mr. Ridge. Pardon me?
    Mr. Sweeney. Is that the case in New York?
    Mr. Ridge. I think there are some cities like New York City 
and Washington, D.C., and a few other major metropolitan areas 
that for the foreseeable future are going to require heavy 
support, no matter what the equation. No matter what the 
equation is for the Urban Area Security Initiative grants, New 
York is always going to be at the top of the list, by far. 
There is not even a close second.
    Mr. Sweeney. Very quickly, we failed in this body in the 
appropriations process to put the President's number back in, 
as you will recall, and failed pretty miserably. It puts you, I 
think, at a distinct disadvantage to really meet those highest 
threat area needs. And so what are you going to do if we do not 
change that in conference?
    Mr. Ridge. Well, again, we will take a look at whatever 
language you have given me, to determine whether or not the 
dollars that were available previously that we distributed to--
we went from 30 to 50 urban communities is compressed, so that 
fewer communities receive more dollars. It is a question of 
dollars and threat assessment. But we know there are two or 
three that are always going to be at the top of the list.
    Mr. Sweeney. Well, I would like to work with you because we 
have a conference where we could do something.
    And I have run out of time. There are 4 minutes remaining 
in the vote. So we will recess for 10 minutes subject to the 
call of the Chair and come back.
    [Recess.]
    Chairman Cox. [Presiding.] With the secretary's indulgence, 
we will proceed with the gentlelady from the Virgin Islands, 
Ms. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    And welcome, Mr. Secretary.
    I am going to hopefully get in three questions. The first 
one is a very basic one.
    Are all of the directorates, all of the offices, now fully 
housed and staffed within the department?
    Mr. Ridge. They are fully established. We still have 
additional analysts to be hired for the information analytical 
group and more people for the IAIP group generally.
    But, by and large, with that and a few more people in the 
Office of Management, we are pretty much up to required 
staffing levels.
    Mrs. Christensen. Okay. Thank you.
    I am also glad to hear your focus on border security, 
because, as you may know, I have sponsored legislation to 
create a border patrol unit for the U.S. Virgin Islands to deal 
with both our human and narcotic smuggling that has been 
increasing in the area. And I am sure you can imagine that as 
you close the borders in one area, the focus will shift to 
another. And we are already seeing some increase.
    So I raise the issue to solicit your support or at the very 
least a commitment to work with me on that issue.
    Mr. Ridge. Congresswoman, I would be pleased to take a look 
at your legislation specifically and see what we could do to 
support your objective.
    Mrs. Christensen. Yes. Thank you.
    And, you know, as another part of that, from the very 
outset of your tenure as the secretary of homeland security, 
you have always stressed the fact that homeland security begins 
beyond the borders of the United States.
    We are also in the region of the Caribbean, and a lot of 
the network that we are involved with that send some of that 
human and narcotic traffic to our jurisdiction comes up through 
the Caribbean region.
    The United States has put a lot of demands on the countries 
of the Caribbean who are very close, long-term neighbors and 
friends, and they are really ill-prepared to bring their 
security up to the levels that we are requiring of them. And 
this country has provided decreasing amounts of aid to the 
Caribbean region.
    Are you aware of any initiative from the federal government 
to assist these countries in the Caribbean who are struggling 
right now just to meet their everyday requirements of their own 
citizens, to deal with the security needs that we are imposing 
on them to provide security for us?
    Mr. Ridge. Congresswoman, I am not aware of any specific 
initiative. What I am aware of, however, is a growing 
recognition, certainly within our department and other places 
within the administration, that some of the concerns that you 
have addressed, the change in migration pattern for illegal 
aliens, drugs and others, is altered because when we close one 
gap--
    Mrs. Christensen. Right.
    Mr. Ridge. --and do more in certain areas of the Caribbean, 
the same network that illegally pushes humans and drugs will 
find a weaker link or an opening. And to that end, we are 
taking a look at, even within our department, what we could do 
to bolster our efforts in that regard in the Caribbean.
    Mrs. Christensen. Thank you.
    Just this morning, the Joint Center for Political and 
Economic Studies and the New York Academy of Medicine released 
a report that says terrorism response plans will not protect 
many Americans. And what they are saying is that many Americans 
would not be safeguarded because existing terrorism response 
plans do not account for how people would behave, that current 
plans have been created in a top-down style, telling people 
what to do in the event of attacks, without considering all of 
the risks and concerns that drive people's actions.
    So the study documents that only two-fifths of Americans, 
perhaps, would follow instructions to go to a public 
vaccination site, in the case of a smallpox outbreak, and only 
three-fifths would follow the instructions to stay inside an 
undamaged building other than their home after a dirty bomb 
explosion.
    How do you think the department in their planning can 
address, or have you begun to address the issue of how people 
behave under certain circumstances, in that they might not 
follow the instructions and therefore place more people at risk 
under events such as these?
    Mr. Ridge. I am not familiar with the specifics of the 
report, but I dare say without reading it, I probably agree 
with their conclusions that the response that the emergency and 
medical community and first responder community would hope for 
in times of a crisis, a biological attack, a chemical attack, a 
radiological attack is not necessarily the one they are going 
to get from people in that community.
    And that is why one of our missions is to build and then 
sustain a public awareness and public education campaign. It 
was very interesting, I think back to all the political 
cartoons I have on my desk, when duck tape and sheeting was the 
subject of some humor. That was to be involved in the emergency 
kit only for very, very selective occasions, just a handful 
when we want you to shelter in place. But there was a reason 
that it was included.
    So the bottom line is that there are different responses to 
different kinds of attacks. And part of the mission of the 
Department of Homeland Security--and here is where we can work, 
I think, in collaboration with the Congress that has the 
ability to go out and educate as well--we have training 
responsibilities and we work with emergency management 
professionals, but to build up the response capability, build 
up the informational awareness and situational awareness so 
that the numbers of an appropriate response, of people who are 
prepared to take an appropriate response, will increase in the 
next survey. Because I dare say their conclusions are probably 
correct.
    Mrs. Christensen. All right, and I think the focus--what 
they are trying to say is that it is not just an education, a 
top-down education process, but communities want to be more 
involved in the planning themselves, and then the response 
would probably increase.
    You have been asked questions about the director of Central 
Intelligence, but I also wanted to raise a question about that. 
You assert that the president first gave the director of 
Central Intelligence expanded authority to coordinate policy 
and develop the budget for the entire intelligence community 
while he waits for us to change the law, set up the scope and 
authority of a national intelligence director.
    In light of this and your comments, is it your 
recommendation that President Bush should endorse or a 
president should endorse and pledge to sign legislation to 
establish a national intelligence director with budget and 
other authority over all of the various intelligence agencies 
throughout government?
    Mr. Ridge. I believe the president during a congressional 
briefing last week indicated his total support not only of the 
concept and the office of national intelligence director, but 
also expressed publicly to the members, your colleagues 
assembled, both chambers, both sides of the aisle, that he 
thought individual should be vested with complete budget 
authority.
    Mrs. Christensen. But it would bring together all 
intelligence under that one director?
    Mr. Ridge. Yes. The budget authority would be brought 
together under the national intelligence director.
    Mrs. Christensen. In light of this and your comments, is it 
your recommendation that President Bush should endorse, or that 
a president should endorse and pledge to sign legislation to 
establish a national intelligence director with budget and 
other authority over all of the various intelligence agencies 
throughout government?
    Mr. Ridge. I believe the president, during a congressional 
briefing last week, indicated his total support not only of the 
concept and the office of national intelligence director, but 
also expressed publicly to the members, your colleagues 
assembled, both chambers, both sides of the aisles, that he 
thought that individual should be vested with complete budget 
authority.
    Mrs. Christensen. But it would bring together all 
intelligence under that one director?
    Mr. Ridge. Yes. The budget authority would be brought 
together under the national intelligence director. But as part 
of the president's proposal, you would have the national 
intelligence director.
    But you would also have a joint intelligence community 
council; that means those who have a legitimate reason to 
discuss with the intelligence director intelligence 
requirements, intelligence needs, budget priorities. There are 
a lot of operational issues that need to be vetted throughout 
the intelligence community.
    So the president has said, strong national intelligence 
director, but to be supported and to interact with the joint 
intelligence community council. And those are all Cabinet-level 
members who would rely upon the NID for collection and analysis 
and the like.
    Mrs. Christensen. One final question. I was not clear that 
you supported having one committee for oversight. For example, 
the establishment of this committee--
    Mr. Ridge. I will let you decide which one it should be. 
Obviously, from our perspective, Madam Congresswoman, the fewer 
the better. I guess the fewest is one.
    [Laughter.]
    But there might be something, however, understanding the 
unique nature of the intelligence role that we play, that at 
least for the information-analysis piece to be accountable, 
responsible and to have the oversight from the Intelligence 
Committee as well.
    Mrs. Christensen. Thank you.
    Thank you, Mr. Chair.
    Mr. Shays. [Presiding.] Mr. Markey? We will not hit the 
clock until you actually sit down and say your first word.
    Okay. Time has started.
    Mr. Markey. Can I appeal the Chair?
    [Laughter.]
    Welcome, Mr. Secretary.
    Mr. Secretary, could a Beslan occur in Boston or Birmingham 
or Baltimore?
    Mr. Ridge. From what I know now, and we still do not have 
all the information relative to how several dozen terrorists 
gained control of the school, but based on preliminary 
information, I would say that it is very unlikely, but there 
are still probably some lessons to be learned. And right now, 
much of the information we have received is just through open-
source reporting.
    But I think in this business, you never say never. And we 
do need to take a look at what transpired; how so many people 
managed to get their way, I think, surreptitiously; how so many 
explosive devices appear to have already been in place; how so 
many weapons may have already been inside the school.
    It is not as if the school was rushed by a platoon of 
terrorists. There is something else at work here, Congressman. 
And until I know and all of us know completely what happened, I 
think it would very difficult to draw conclusions.
    Having said that, I think I know where your line of 
questioning is going. And improving security around our 
educational system, regardless of Beslan, is something we need 
to do, and have done and will continue to do.
    Mr. Markey. Are you in the process of doing an examination 
of the lessons of this Russian catastrophe?
    Mr. Ridge. Yes. We are, the intelligence community is, and 
the FBI is.
    Again, much of the initial information we received was, 
frankly, just through their TV commentary and press reports. We 
are getting more information from the government. But I do not 
think anyone would conclude that we have complete information 
yet, Congressman.
    But we try to learn from any of these incidents overseas 
involving a terrorist attack, see if there are lessons we can 
apply here.
    Mr. Markey. Obviously, we spend a lot of time talking here 
about chemical facilities and nuclear facilities, about New 
York City and Washington, D.C., being potential targets.
    Clearly, what has happened here is that the playing field 
has been broadened by these terrorists, and they realize the 
impact that they can have upon a country. And, obviously, on 
September 11th there were 19 terrorists who were suicidal, 
potentially well armed. And if that kind of an incident 
occurred in a school, in a community in our country, it would 
be the most horrific event that we had ever witnessed.
    And I think it is very important for us to take all of the 
steps that are necessary and to articulate to the American 
people what a plan would be to make sure that we would not have 
a Beslan which happened in our country.
    Mr. Ridge. Congressman, the horror associated with that 
incident speaks to the nature of the evil that we are trying to 
combat. The notion that children in school and their parents 
and their teachers, innocents all, would be subjected to the 
horror of the day, in our minds is unspeakable and 
unconscionable. So we agree on that.
    I think we also note, in response to smaller-scale but 
violence in our schools in the 1990s, there are a lot of 
schools that began, unfortunately, taking security precautions 
after Columbine and a series of shootings that occurred in our 
schools.
    A lot of our schools generally reduced the number of places 
you can enter and exit. Many of them now have uniformed, and 
some have un-uniformed police officers patrolling the halls. 
Unfortunately, some have metal detectors. So we already have a 
level of security.
    We have got a Ready for Kids program that is going to be 
part of our national preparedness campaign we are rolling out, 
working with the secretary of education.
    But we also have to--
    Mr. Markey. Could I ask you just one more quick question?
    Mr. Ridge. Sure. I am sorry.
    Mr. Markey. It is on a different subject. And it has to do 
with the direct flights from Moscow to the United States.
    A Washington Post report on September 3 indicated that TSA 
requires that all cargo loaded onto Delta and Aeroflot planes 
must also be screened for explosives.
    As you know, almost none of the cargo that is carried on 
U.S. passenger planes is inspected for explosives or other 
dangerous materials, which is a huge security loophole that 
puts airline passengers and crew members at risk.
    Other than the flights from Russia to the United States, 
are there any other instances where TSA is currently conducting 
full screening of all cargo on board?
    Chairman Cox. The gentleman's time is expired. But, Mr. 
Secretary, you can answer the question.
    Mr. Ridge. I think, in answer to your question, 
Congressman, that is an emergency directive, whether or not it 
remains a permanent part of the security infrastructure remains 
to be seen. But given the circumstances around the loss of 
those two flights and what we believe to be the reasons, we 
decided temporarily we needed to bolster their security 
measures until such time we were satisfied that they had 
frankly ramped up to the level of security that they had 
professed to have achieved long before that incident occurred.
    Mr. Markey. So you may actually discontinue the inspection 
of cargo on those flights?
    Mr. Ridge. As we try to manage the risk with regard to that 
and other flights, we continue to take a look at additional 
ways to screen cargo. There is a possibility that that would be 
discontinued, that is correct.
    Mr. Markey. I think it would be a big mistake not to screen 
those planes flying into the United States without ensuring 
that all potential explosives have been searched for on those 
planes. I do not think that we should run the risk.
    Mr. Ridge. You and I have had some very good discussions 
with regard to air cargo, and I do not want to leave you the 
impression that the Russian incident is being ignored.
    We continue to require certain levels of inspection from 
foreign carriers coming in. We are continuing to explore 
explosive technology for our domestic air cargo to start with 
potential application overseas down the road.
    There are a lot of initiatives that we have undertaken, but 
I cannot tell you with absolute certainty today that for all 
time and for all purposes those four or five flights daily in 
the United States are going to have that technical requirement. 
We do not know yet. Depends on circumstances.
    Mr. Markey. Again, I think it is a mistake.
    Chairman Cox. [Presiding.] The gentlelady from Texas, Ms. 
Granger, is recognized for 5 minutes.
    Ms. Granger. Thank you very much, and thank you for being 
us again.
    When I first came to Congress eight years ago, the numbers 
that I heard were that we could reasonably accept 300,000 
people coming into the United States a year, and we were 
getting about 1.2 million.
    I am looking at a Time magazine article ``Who Let the Door 
Open?'' And they say that it is as many as 3 million now coming 
illegally in the United States, and said a small but growing 
number come from other countries, and said that 55,890 were 
apprehended, described officially as ``other than Mexicans,'' 
because more than often, it is Mexicans.
    First of all, I would ask do your numbers--to one side--do 
you believe those numbers? And the most important question is 
what are we going to do about it and what are we doing about 
our border?
    Mr. Ridge. Our numbers would differ. Unfortunately, I 
believe, they have to guesstimate the number of people that are 
not apprehended. Coming in with a conclusive figure about the 
number of people if you do not actually know who cross the 
border, I think, is somewhat speculative. But having said that, 
we admit that we have not closed the border completely.
    But I would share with you, Congressman, that I think we 
have gained significant operational control over the border 
over the past 18 months with the creation of the department. It 
is one of our highest priorities. And there is a variety of 
means that we have used to try to close the border.
    We certainly have more agents down there because of 
congressional appropriations. We have more sensor technology. 
We have begun to experiment with unmanned aerial vehicles so 
that we have basically an opportunity to see what is going on 
in some of the more perilous and difficult terrain that we have 
difficulty accessing, but illegal aliens use as a route into 
the United States
    We have much closer cooperation with our friends in the 
Mexican law enforcement community. So there are a variety of 
things at our land borders that we continue to promote to try 
to continue to close the gaps.
    Admittedly, we still have work to do.
    Ms. Granger. What more do you need? What more do you need 
from us?
    Mr. Ridge. I think, in time, depending on how the 
experiment with the unmanned aerial vehicles works out, there 
may be need for more capital, equipment and more agents.
    One of the challenges we have is to continue to generate 
even greater support form our friends in Mexico with regard to 
really backing down and eliminating the alien smuggling 
network.
    Everyone has great empathy for those young men and women 
and families that try to come across our borders. We do not 
look at Mexicans as a terrorist nation or these folks as 
terrorists. They are coming in for the same reason immigrants 
did many, many years ago.
    But we do have a responsibility to protect our borders and 
try to ensure that any immigration is legal. And so to the 
extent that we can do more to break down the illegal network 
that has been established within Mexico that supports this 
effort, I think, frankly, we are doing better there, but more 
cooperation would be helpful.
    Ms. Granger. I will be going on a tour of the border this 
coming weekend. And I know what I will see. And they take you 
to the places where it is regulated crossing. But what we are 
hearing are the crossing that are certainly not regular 
crossings.
    And, you know, the border is so long, the number of 
agents--I do not see how we can ever get there from the number 
of agents. So it has to be technology, it seems to me.
    Mr. Ridge. I think the biggest challenge we have is: What 
are the kinds of technology that we can deploy along the border 
that give us the information, the awareness, the alertness that 
we need to interdict.
    And we are experimenting with different kinds of sensors. 
And the latest experiment, I think, has high potential, great 
potential, the unmanned aerial vehicles.
    Ms. Granger. Thank you very much.
    Chairman Cox. The gentlelady's time has expired.
    The gentleman from Maryland, Mr. Cardin, is recognized for 
5 minutes.
    Mr. Cardin. Thank you very much, Mr. Chairman.
    Mr. Secretary, it is a pleasure to have you once again 
before our committee.
    I want to follow on the Chairman's comments as to how the 
implementation of the 9/11 Commission's recommendation for a 
national intelligence director could impact on the operations 
of your agency, particularly the Information Analysis and 
Infrastructure Protection Unit, in getting information that is 
shared particularly with local government.
    There is a concern that as Congress considers how to 
implement the national intelligence director, that there are 
changes being made or suggestions being made that may affect 
the Department of Defense and how it gathers information, et 
cetera.
    My concern is that your information analysis section within 
the Department of Homeland Security, which is of utmost 
importance for our domestic needs, particularly with local 
government, that that is not compromised, as it allows local 
governments to access the up-to-date information in order to 
protect their communities.
    So I just want to give you a little bit more time to 
express whether this is being carefully reviewed to make sure 
that the needs of local governments to access information for 
your department will not be compromised as we implement the 9/
11 Commission's recommendations.
    Mr. Ridge. Appreciate the additional time to amplify the 
earlier response.
    There is no doubt in the mind of our professionals within 
the agency that ceding to the counterterrorism center the 
responsibility and working with the NID to have a strategic 
assessment, as it relates to domestic threats, will not 
compromise the mission that you have given us; and that is to 
take a look at the domestic threat, match it or map it against 
either the potential target or the broader potential 
vulnerability, and make sure you do everything you can to 
protect the target or reduce the vulnerability.
    We will not forego, however, within our own information 
analysis unit, the responsibility and the obligation to do our 
own competitive analysis. So we will certainly take a look at 
the strategic threat, as it relates to the United States and as 
it relates to an attack, but we will also do our own analysis, 
just to make sure that we agree.
    And if we disagree, obviously, we have got to meet and 
resolve whatever the disagreement might be.
    What I think it does is I think it frees up that 
Infrastructure Analysis and Infrastructure Protection unit to 
develop and then sustain more thoroughly the kind of 
relationship I think Congress wanted the department to build 
with the state and locals; that is, get this threat 
information, credible threat information, and make sure that 
the right people receive it and that with your support or with 
your direction, they act upon it.
    And one of the challenges I think we have in the new 
intelligence structure is to determine the best way, the best 
means of communication of that threat assessment down to the 
state and locals.
    And, I mean, I think we are best equipped as a department 
or agency to do that because we have built and continued to 
build out relationship with governors, homeland security 
advisers, police and fire chiefs at the local level, and even 
into the private sector, through the Internet, video 
conferencing.
    There are a lot of ways. And we do a lot of it in 
conjunction with the FBI. But I do not think we need more than 
a couple of people communicating with the state and locals.
    Mr. Cardin. I appreciate that response. I agree with that.
    I think that the Department of Homeland Security is in the 
best position to maintain those types of relationships with 
local governments. And if it is through the national 
intelligence director or through one of the collection 
agencies, it is a lot more difficult.
    So I think that your role needs to be maintained there. And 
I hope as we work to implement the provisions that that is 
maintained.
    I just want to raise the issue that was raised by 
Congresswoman Norton, and that is the rail security issues. It 
has not been as high a priority as some of the other modes of 
transportation. We do not do the same thing with rail security 
as we do with other; with air security, for sure.
    And I know you are implementing certain pilot demonstration 
programs. I would just urge you to try to develop a reasonable 
strategy as quickly as possible working with as many 
organizations as possible. Because I do think it is an area 
that cries out for just higher priority as we try to now deal 
with the vulnerabilities of our country.
    Mr. Ridge. Well, I appreciate the comment. As you know, you 
gave us some discretion with some of the grant money. And we 
carved out some for mass transit a year or two ago.
    Actually, there were some very appropriate lessons learned 
there. And you should also know that we have on a daily basis 
an ongoing working relationship with the railroad industry, 
mass transit industry generally. And so we are not vetting 
these independently of their input.
    So as we develop our national transportation strategy and 
then focus in on mass transit, we are going to take a look at 
lessons learned in Madrid, take a look at the technology and 
the pilot programs we have been running, take a look at 
measures, some of the initiatives that some of the initiatives 
that have been undertaken without any federal support, and see 
the best combination of protective measures that exist so that 
we do not compromise the purpose and the use of mass transit.
    But I just do not think we are ever going to be able to 
line up, and you basically undermine the purpose of mass 
transit. But there is certainly more that we can do, and we are 
hopeful that technology can fill a substantial part of that 
security gap.
    Mr. Cardin. Thank you, Mr. Secretary.
    Chairman Cox. The chairman of the Subcommittee on Emergency 
Preparedness and Response, the gentleman from Arizona, Mr. 
Shadegg, is recognized for 5 minutes.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Mr. Secretary, I want to thank you very much for being 
here. I certainly appreciate your testimony here today and your 
efforts on our nation's behalf.
    I particularly want to express my appreciation for your 
efforts on the Arizona border, for your visit there last 
December. As you will recall, we were able to spend the day in 
helicopters over the border and look at it, and had a great 
policy discussion thereafter.
    I also want to express my appreciation for your efforts on 
the Arizona Border Control Initiative. I think that, along with 
the additional allocation of resources to the problem in 
Arizona of smugglers particularly, the coyotes who bring in 
individuals for pay, and some of the safe houses that you have 
been able to go after.
    And I just want to make it clear that you understand I 
appreciate all of those efforts. It has made a material 
difference. And my constituents for I think the first time in 
many years see that the federal government is at least focusing 
on, if not yet solved the problem of an open border on the 
southern side of the nation.
    I think everybody understands this is an extremely 
difficult issue, but they also appreciate the fact that there 
are now resources being devoted to the Arizona-Mexico border, 
whereas in the past, those resources, at least in my district, 
were perceived as going to other states. So on behalf of the 
people of Arizona, I want to say thanks.
    As you know, there is an article in this week's Time 
magazine and there has been some focus on the OTMs, other than 
Mexicans, that are crossing the border that have been 
intercepted. I wondered if you have a comment about that, as 
that directly implicates the issue of homeland security and the 
concern I have, which is of trying to prevent an attack before 
one occurs.
    Mr. Ridge. The article did not refer to another new 
initiative. Actually, the article did not refer to anything 
that we are doing in the Department of Homeland Security, which 
is a point of frustration, but I guess that is literary 
license.
    Mr. Shadegg. Here is your shot.
    Mr. Ridge. Well, we are doing a lot. It is a shame some of 
it was not mentioned in the article. But with regard to the 
OTMs, other than Mexicans, we have a program now of expedited 
removal which we are working in two areas to determine the cost 
and to see how effective it is.
    But, frankly, until we had the department, and until we had 
this expedited removal program, if those illegals came in 
through a non-port of entry--in other words, if they did not 
walk up and try to get through one of the regular ports of 
entry, they came in through wilderness area--we had a difficult 
time in dealing with them. We sometimes apprehended them, 
sometimes let them go and said, ``Report back for a hearing.''
    Now, when we apprehend them, we want to them around and 
send them back to their country of origin.
    So I think, again, one of the new initiatives that we are 
working on dealing with other than Mexican illegals coming 
across the border at non-ports of entry is the expedited 
removal program.
    In time, I think we will probably look for additional 
dollars to accelerate the program. We do not want to just 
replace them across the border, we want to send them back home.
    Mr. Shadegg. As you know, the administration has proposed 
or considered and is looking at seriously some type of a guest 
worker program. Those words, in my district, cause some 
consternation, and yet there are many of us who believe you can 
never completely seal that border. We have put a lot of people 
on it.
    And I think the prospect of sealing it when the economic 
pressure to come across is so great, it seems to me we could be 
better devoting our resources to the people who cross the 
border with evil intent, with animus, terrorists, if we had a 
program which set aside and enabled people who want to come 
here for the economic opportunity, just to get money and send 
it back home to their families.
    And I wondered if you had looked at that issue from that 
perspective.
    Mr. Ridge. I think it is hugely important from a security 
perspective if you legitimize the presence of people coming to 
and from the United States, particularly Mexicans, for work, 
and accompany that with a much more vigorous enforcement, you 
will serve to, one, respect the economic needs of both the 
employee and the employer.
    And as the president said, not satisfactory if you are 
going to replace a job for which an American citizen might be 
hired, but you respect the economic need of employer and 
employee, but you also say to those who seek employment here, 
there is only one way to get it, one legitimate way to get 
employment.
    And I must say this: It is not just more border enforcement 
along the land border. We are going to have to have some 
rigorous enforcement within the business community--
    Mr. Shadegg. Absolutely.
    Mr. Ridge. --for those, if we had the program, would seek 
to still go around the expressed intent of the policy, and that 
is to legitimize the presence of foreign nationals for 
employment purposes.
    So I can see it adding enormous benefit to our security 
measures at the border, so we can just focus our people and 
technology on those who are not legitimately present, period.
    Mr. Shadegg. Those who are a real threat. I could not agree 
more.
    I do not know if I have time remaining. I would like to 
focus on intelligence for just a moment. A lot of 
recommendations have been made to us with regard to--
    Chairman Cox. The gentleman's time has expired.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Chairman Cox. The gentleman from Oregon, Mr. DeFazio, is 
recognized for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you again. Thank you.
    A quick note, before I get started here, after your last 
testimony before the committee, I had had some questions about 
disaster medical assistance teams and you asked I follow up in 
writing. I did on March 19th. But we have had no response. If 
you could prod your staff on that, it would be great.
    I think it is an important issue to better utilize them and 
to get their new chain of command straightened out.
    I have some questions relating to aviation, in particular, 
my concern in the aftermath of the Russian incident, which, 
actually, I have had a concern long before that about plastics 
explosives.
    Just week before last when I was flying back for a hearing 
of the aviation committee during the August break, I was flying 
out of a different airport--Medford--and I watched as a person 
who had been profiled with the black S's, they took him aside 
for additional screening, including using a metal detector on 
the bottoms of his bare feet. He was not wearing socks.
    Now, here is the point. They wanded the bottoms of his bare 
feet. He had the black S's. They did not frisk him. So if he 
was wearing a suicide belt, they got no clue. You are not going 
to find a suicide belt with a metal detector or a wand that is 
hand-held.
    And I feel very strongly about, sort of, our protocols 
here. I asked Admiral Stone that next day at that hearing about 
that, and said: Are you going to start frisking people who are 
selectees or otherwise looking for hidden plastics explosives? 
And at that point, he said, no. I think that is a grave error.
    You know, there will be no metal in a plastic explosives 
belt. I mean, because they are not trying to wound people like 
in Israel. They just want to take down a plane. It does not 
have to be in a belt either. It could be otherwise concealed, 
electronic devices the size of an iPod.
    There is technology out there. The staff of Homeland 
Security admitted in a meeting with aviation staff that the 
technology for portals is mature. There is no reason to pilot 
it as we are doing now in five airports this year and nine next 
year. It is mature. It has worked. It is used at defense 
installations and nuclear plants.
    Can you give me any idea if you are going to push a little 
here with your folks and maybe move us ahead more quickly on 
plastic explosives detection?
    Mr. Ridge. Let me respond, I think, in two parts to your 
inquiry. First of all, I believe since the time you had the 
conversation with Admiral Stone, the whole issue of patting 
down folks, in secondary, has been revisited.
    And, you know, it is a matter that we constantly wrestle 
with with privacy, with decency or with how we can 
appropriately check passengers for the possibility of carrying 
on their person explosive devices--
    Mr. DeFazio. Right.
    Mr. Ridge. We decided to change that policy and allow for a 
different and more vigorous body check, again, trying to 
respond to the concerns of privacy and decency and the like.
    Previous patting was actually with the external part of 
your--as crazy as it may sound, but we had people patting down 
the back of their hands. And that has been changed so that a 
more thorough and more routine patting down can occur.
    And of course, there is the gender-specific, as well. But 
we are going to try to address it in as delicate and as 
responsible and respectful a way as possible.
    I do not know the staff members that concluded that the 
technology is cost-effective and error prone, or at least it 
does not give us a false-positive rate at a level that would 
cause us to think twice about it, but I will personally get 
back to you within the next 10 days on that issue, so that the 
delay between the last letter and now, which hopefully we will 
rectify by then, but I will get back to you personally on that 
issue.
    Mr. DeFazio. Well, in addition to the trace portals, I have 
seen the ion scan at National; that is a good step forward. But 
there is also--
    Mr. Ridge. I am just not sure how accurate, I am not sure 
how--I do not have the technical assessment with me. I will 
personally get back to you on that.
    Mr. DeFazio. Okay. There is another promising technology, 
too, which, again, I had demonstrated a couple years ago, which 
is a back scatter X-ray which exposes a person down to the 
skin. And what I heard two years ago from I think Admiral Loy 
at the time, or maybe it was still even Mr. McGaw, was, well, 
the potential for embarrassment.
    I said, ``Well, you know, we can take care of that 
technologically. You give them whatever body they want. It just 
shows where on the body things are located.''
    And Admiral Stone said there is a big breakthrough and now 
they have developed it so they can do it with a stick figure.
    It should not have taken two years.
    And that also is very promising to find things concealed on 
the body.
    So I would hope that we can just move ahead with some sense 
of urgency, because I just think we are biding our time until 
we see a similar attempt on a U.S. flight.
    And given the fact that we are doing a much better job on 
baggage, even though that is not totally secure yet, I expect 
they may well try carry-on explosives, and we need to do what 
we can there.
    Mr. Ridge. Congressman, I want to assure you, we share the 
sense of urgency. You have given us--been very generous to our 
science and technology unit, and we are looking precisely for 
those kind of technologies to add another layer of security to 
aviation.
    Mr. DeFazio. Thank you.
    Thank you, Mr. Chairman.
    Chairman Cox. The gentleman's time is expired.
    The gentlelady from New York, Ms. Lowey, is recognized for 
5 minutes.
    Mrs. Lowey. Thank you, Mr. Chairman.
    And welcome, Mr. Secretary.
    While the focus in the media and in Congress with respect 
to the September 11 Commission report has been on the major 
structural changes recommended, I hope that we can focus for a 
moment on the recommendations that could be implemented 
immediately, in many cases without enacting legislation.
    Strengthening airport security, and I think it is 
appropriate that I am following my good friend Mr. DeFazio, 
because we have both been working in this area, and it has been 
one of the areas in which we have an identifiable failure and 
specific commonsense remedies at our disposal.
    We know that in the wake of September 11th we passed 
legislation requiring the physical screening of all airport 
workers. We know that airport workers have been implicated in 
plans to use their access to secure airport facilities for 
illegal operations. The most recent major case in the news was 
the drug smuggling ring at JFK Airport in New York.
    And as you may know, a June 2004 GAO report, a report with 
which TSA generally agreed, found that vulnerabilities in 
airport security remain, and that the most recent security 
directives failed to fully address these concerns.
    The 9/11 Commission report recommends clearly that a TSA 
security plan ``take into consideration the full array of 
possible enemy tactics, such as the use of insiders.''
    When I asked Chairman Kean about worker screening, he 
replied firmly, ``Everybody should go through metal detectors. 
Everybody should go through metal detectors. My belief, without 
exception.''
    Mr. Secretary, I was pleased before that, within another 
context, you referred to international standards. Many of my 
colleagues and I have repeatedly urged the adoption of stricter 
worker screening standards in our nation's airports. We have 
repeatedly been told by TSA that they are too expensive, too 
inconvenient to implement.
    However, at Heathrow Airport in London, the busiest 
international airport in the world, 100 percent of workers are 
physically screened, and that at Charles de Gaulle in Paris, 
they are working to meet that standing.
    Well, first of all, to my understanding, no cost analysis 
of such a screening has ever been done. And even so, I would 
hope that cost and inconvenience would not be the deciding 
factor besides whether or not the TSA implements such a 
program.
    And just a few questions. How would you suggest I answer my 
constituents who ask why airport workers who are going into 
secure, sterile areas--food service workers, ramp worker, et 
cetera--are not subject to the same physical screening standard 
as airline passengers?
    Are there other fundamental security procedures that have 
been considered and then rejected because of a perceived 
inconvenience?
    And will you, Mr. Secretary, perhaps we can make news 
today, will you issue a security directive requiring that all 
airport workers and their possessions receive the same physical 
screening as passengers?
    Now, I have to just tell you, I have a congressional badge. 
I expect that I am going to go through the metal detectors. But 
the workers, ramp workers, food caterers, had their background 
check, which might have been issued two years ago. They do not 
have to go through metal detectors. It is left up to the 
discretion of the airports.
    I think this is absurd. It is outrageous. Can you make a 
decision today directing the TSA to issue that order that 
everyone who has access to secure, sterile areas must go 
through the metal detectors?
    Mr. Ridge. We have been in the process of reviewing some 
security directives that would subject employees to go through 
a physical inspection--
    Mrs. Lowey. Could I be rude and interrupt you?
    Mr. Ridge. No, if you would just bear with me 30 seconds, 
so I can check. Along with a contract that we let out to an 
organization to begin to accelerate the process for 
transportation worker identification cards so we can do 
background checks, biometrics, et cetera, as well.
    I just need to confirm something. If you will excuse me, 
Madam Congresswoman. Bear with me.
    I ask the unanimous consent that the gentlelady have 
another however much time I am consuming by--
    Chairman Cox. The witness is out of order.
    Mr. Ridge. Just wanted to make sure, Congresswoman.
    We have implemented additional screening requirements for 
airport workers that come into the secure areas so that they 
will be physically inspected.
    There are other zones, yet--and this is the worker who may 
be involved in one of the shops or the restaurants, et cetera, 
so when they come in, they are inspected.
    The secure area, the sterile area, that around the 
airplanes themselves, the ramp area, they are to be covered 
under the transportation worker program identification card 
where we do background checks, issue a biometrics, so we can 
make a decision that these are not terrorists. They are who 
they say they are. We have confirmed their identity not only 
with a background check, but with a security check.
    So we are not quite where you want us to be. But we have 
begun the process of running employees who work in the secured 
area through physical inspections.
    Mrs. Lowey. If I may just continue for a moment--
    Mr. Ridge. Please.
    Mrs. Lowey. --and I know Mr. DeFazio has been working on 
this, as I have, and he probably much longer.
    Number one, he has requested information from FAA and TSA 
that he has not received--we have not received--clearly 
outlining the security procedures in place at each airport. 
Because, as you well know, or your staff in consulting with 
you, it is up to the individual airport.
    I think this is outrageous. This has been going on--it is 
three years since 9/11--
    Mr. DeFazio. Nita? Nita? Could I? I am sorry, it is over 
here.
    Actually, he did. And it is confusing because they talk 
about secure and sterile. The major focus of what I had been 
asking and they could not provide was about the secure areas 
and the workers going into the terminals. They now have a 
uniform rule that everybody has to go through screening.
    Now the other area in question is the one you are raising 
questions about, which is the sterile area--
    Mrs. Lowey. Correct.
    Mr. Ridge. Which is access to the airplanes and the--
    Chairman Cox. The gentlelady's time has expired. The time 
belongs to Mr. Pascrell.
    And I have already granted the gentlelady an additional 
minute and a half, but the secretary can certainly answer the 
question.
    Mrs. Lowey. Well, let me just make, if I may, one, if you 
could get back to me, it is my understanding that airport 
workers are still going into sterile areas without going 
through metal detectors. And I have been told by the local 
airport and other airports, until it is mandated, until this 
cost is picked up, they cannot do it.
    I think this directive has to be put in place. I will keep 
going through metal detectors; you should; and everyone who 
could possibly put an explosive on a plane, seems to me, should 
be going through a metal detector. And it is so simple. We do 
not have to go through this great reorganization of our 
government.
    Chairman Cox. Gentlelady's time has expired.
    Mrs. Lowey. Thank you, Mr. Chairman, for your indulgence. 
And I hope we can continue the discussion.
    Chairman Cox. The gentleman from New Jersey, Mr. Pascrell, 
is recognized for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Secretary, there are a few areas in the 9/11 report 
which the Homeland Security Department does not have direct 
attention to, and that is in the area of our relationships with 
other countries. You brought up one of the examples of 
biometric standards, looking for a universal standard, because 
we are going to need the cooperation of other countries in 
order to employ that particular standard. How critical it is.
    And chapter 12 of the 9/11 report deals with the subject of 
our relationships with other countries. And you know that, Mr. 
Secretary, I am not asking you respond to this, you know our 
relationships with other countries in the last two years has 
gone south, whether we are talking about Ireland, whether we 
are talking about Greece, whether we are talking about a lot of 
other countries.
    Not only in the biometric standards are we seeking to have 
cooperation from other countries, but we need cooperation from 
other countries if we are going to check the containers that 
come into this country.
    We cannot--we cannot--we have been told over and over 
again, have enough of the state-of-the-art to check every 
container, the millions of containers that come into this 
country, from every port into our ports into this country, and 
that is why we have sought--and some countries are cooperating; 
many countries are cooperating, from what I understand--that 
they are checking the container before it gets on the ship that 
is coming to the United States of America.
    And this is only part of the example. If we do not have the 
cooperation from other countries, we cannot do--you cannot do 
your job, we cannot do our job.
    Would you just briefly comment on that?
    Mr. Ridge. First of all, in a broader context, Congressman, 
I think you are right. As we try to build a global response to 
a global threat, and we improve security around commercial 
aviation and commercial shipping, and to improve the process 
around where all countries are comfortable with people and 
cargo coming across their borders, therefore developing 
standards with regard to maritime safety, aviation safety, 
document authentication and identity verification is critically 
important.
    I would say there has been great cooperation in those areas 
among our allies. The Coast Guard took the lead in working with 
the International Maritime Organization to begin developing 
security measures relating to ports and vessels, and Congress 
followed on when it passed the Maritime Transportation and 
Safety Act.
    We have begun working with the European Union on getting 
advance passenger information, and along that process have 
begun discussions with them about biometric standards that will 
provide added layers of security so that we know the person 
that gets the document is the person that comes into this 
country.
    We are working a process right now within our own 
Department of State so that if a foreigner gets a visa, they 
will have their photograph taken, the finger scans given so 
that when they come into a port of entry here, we can match the 
photograph and the finger scans. That is helping us 
domestically; we need international standards like that across 
the board.
    The Container Security Initiative, we are in 25 countries. 
We are not there unless they agree. And matter of fact, most of 
those countries help pay for the technology.
    So with regard to some of the initiatives that we have 
undertaken, and certainly from a law enforcement and an 
information sharing-basis, I think the collaboration within the 
broader world community has been very, very good. And frankly I 
think it is getting better.
    Mr. Pascrell. We need the international community, there 
are no two ways about it. And I hope that we can have damage 
control. And I hope with people like yourself--yourself--that 
you will have--you know, because Chapter 12 has been ignored by 
most folks who look into the commission report, and that is a 
critical part of this.
    You know, I have seen fear. I have seen terror in the faces 
of people, Mr. Secretary. We do not need folks attacking us, 
because we are talking about non-state terrorism, for the most 
part. But I have seen terror on the streets of America of folks 
who cannot look out their windows in areas that are consumed by 
illicit drugs.
    And I am very concerned about that terror that is just as 
real as the terror that you are doing such a wonderful job in. 
I am very concerned about drugs. They are off the map. We do 
not even talk about them.
    And you know you can go to most cities in this country, and 
there is terror, and it is spreading into the suburban 
communities, and it has been spreading for a long time.
    I am not making a political statement. I remember when we 
first started this committee.
    Chairman Cox. The gentleman's time has expired.
    The gentleman may proceed with the balance of his question.
    Mr. Pascrell. Thank you, Mr. Chairman.
    I remember when we first started this committee, we asked 
the Coast Guard and we asked the FBI if we were going to be 
taking away personnel and resources in looking at non-state 
terrorism and perhaps neglecting the interdiction which is so 
critical to more and more drugs which are getting into this 
country. That is, to me, part of homeland security, isn't it?
    Mr. Ridge. I think, number one, you should know that all 
the agencies that we inherited who had a role within our war to 
combat illicit drug traffic still participate aggressively and 
very, very effectively.
    You are right, Congressman, it is another form of chemical 
warfare, and we have been waging that battle for a long, long 
time, and it is a weapon of mass effect.
    But you should be assured that the resources we have--I 
mean, there is so much interplay between illicit drug networks 
and illegal human networks, smuggling networks and potential 
terrorist networks so that when we work with the Mexican 
community with regard to illegal human smuggling or drugs or 
others, you should know that that collaboration has improved 
significantly.
    And we have not lost sight of the fact that an historic 
mission or responsibility for the Coast Guard and for other 
elements within our department is combating drugs, and frankly, 
pulling these together--these units together under one 
department.
    And I would love to have Roger Mackin come up and spend 
some time with you. He has done a wonderful job in our 
department seeing to it that these resources have been 
integrated. We see change in the migratory pattern of drug 
traffic because of the interdictions in a certain part of the 
Caribbean and efforts we have undertaken both with all the 
assets we have and other resources within the federal 
government. We are seeing some of the drug flow patterns change 
because the interdiction is getting much, much better.
    So I am going to make it a point to have Roger come up and 
spend a little time with you. I think you would be very 
comforted and appreciate the fact that even within this 
Department of Homeland Security, this historic mission has--we 
have a sense of urgency about it, and we have made some 
significant changes in affecting the flow of drugs to the 
country.
    Chairman Cox. The gentlelady from Texas, Ms. Jackson Lee, 
is recognized for 5 minutes.
    Ms. Jackson-Lee. Thank you very much, Mr. Secretary.
    Thank you, Mr. Chairman and Ranking Member.
    Mr. Secretary, I think we to a one have said that you have 
done a very able job on a very, very tough task, and I thank 
you for it. I am going to try and run through this like a 
locomotive train.
    One, if you could refer to the Transportation Security 
Administration on this expedited card process where you had the 
five pilot airports that were engaging in it, where you get an 
ID card--can I ask you to extend on that?
    There was a 2,000 cap, meaning you enrolled 2,000 persons. 
I think it was a 90-day--and we are being asked all over the 
country if it could be extended for 30 days. And that is just a 
request. If you can get me an answer back.
    Houston happens to be one of the airports. And we would 
appreciate that extension, if you could do so.
    A quick question: Do we have enough money to fund the US-
VISIT program and have the proper staff? Also, would you 
comment on your understanding and support of the concept of the 
privacy office that was recommended by the 9/11 Commission?
    Three quick questions together.
    And the last one: I wrote a letter on March 19, 2004, where 
I inquired as to what security enhancements are reimbursable. A 
letter came back. But one of the concerns that was raised was 
this whole idea of the monies coming to the states--you have 
heard this many, many times--and then having to translate into 
smaller jurisdictions like cities.
    Houston happens to be the fourth largest city in the 
nation. And my concern is that in those instances, many time 
politics gets in the way sometimes of the generating of those 
dollars. Mayors have asked you, some of us have asked you--I 
happen to be one of those that believes dollars should go to 
the more vulnerable places--so I support the concepts of New 
York and California and Houston.
    Could you help us in how we can eliminate the politics when 
you start sending dollars to states and then local 
jurisdictions are somewhat inhibited by getting those dollars? 
Maybe you could just talk about the sort of fire wall that 
prevents any kind of negative politics from getting to--cities 
not getting dollars.
    The last two points are somewhat testimonial statements. 
Lou Dobbs, the Times, everyone has been talking about the 
trials and tribulations at the border. I just came back from 
the border, just a few weeks or so ago. There is just a great 
catastrophe, if you will.
    But I am glad to hear you mention the fact that the borders 
are more of concern than the 12 million to 14 million 
undocumented that are in this country that are already hear 
working and paying taxes and doing what they need to do, and 
that has to do with fixing the immigration system.
    How can we best work with the borders? How can we border 
states best work with you? How can we get more dollars for 
border patrol and technology and as well provide more beds for 
detainees when they actually are arrested?
    And I come to my last point, which has to do with the whole 
question of the organization of the Department of Homeland 
Security, pursuant to 9/11.
    One, give me your answer again about the structure of 
committees in the Congress, what is better suited for you in 
terms of committees. And give me an answer as it relates to the 
real reform of the intelligence system, how important that is 
for the Homeland Security Committee to get good intelligence in 
order to be able to secure the homeland.
    I would offer my own editorial comment and just say that I 
know that there is testimony going on today on a person 
nominated. I am not sure for what, because we do not know 
whether we are looking at a national intelligence director.
    But let me just say, with respect to Mr. Goss, my concern 
is that there is not a sense of independence; there is not a 
sense of being a reformer. And I might question someone who was 
averse to having an investigation of the CIA when there was 
questions about whether a covert agent had been uncovered.
    So I hope that you will weigh in, quietly, on how the 
intelligence will be effective and you working in the Homeland 
Security Department.
    But in any event, I know hopefully you will be able to 
answer, at least partially, some of my questions.
    Thank you.
    Mr. Ridge. Congresswoman, let me see if I can respond 
quickly to all very appropriate questions.
    First of all, I will tell you that it is unlikely that you 
will see a 30-day extension. Frankly, if there is good lessons 
learned, with regard to the registered traveler program--we 
think there will be--we would like to expand it nationally, not 
on a pilot, but make it a national program.
    So I think it is unlikely--we felt 90 days was time 
enough--I think it is unlikely we will get the extension.
    Yes, we do have sufficient dollars coming, I think, in the 
fiscal year 2005 budget for US-VISIT. We will be asking for 
more as we prepare a budget for next year.
    The notion of a privacy council, given all the initiatives 
that this government has taken since 9/11 to enhance security I 
think is very consistent with what America would expect, what 
the president wants, and what the Congress frankly directed we 
do within Homeland Security; and that is we must continue to 
preserve the freedoms and liberties and the protections we have 
had as we combat terrorism.
    And we must generate and create a culture of awareness of 
these privacy concerns so that at the very outset, as we are 
thinking about new initiatives that would enhance security, we 
would be worried about the privacy, and we would be worried 
about civil liberties.
    And so I think it is a historic move. It is something that 
has been done in other parts of the world. And whatever the 
ultimate constitution of that committee might be, the president 
has taken I think a very appropriate bold step by saying, 
administration-wide, we are going to have this privacy council.
    I know the two extraordinary attorneys that I have on my 
staff, one dealing with civil liberties and freedom, the other 
dealing with privacy issues will be part of that group, so--
    Ms. Granger. [Presiding.] I am going to interrupt you, Mr. 
Secretary. I am sorry. We have got a vote, and we have got one 
last person to ask questions, Mr. Etheridge.
    Mr. Ridge. All right, well, let us let him go. And I am 
going to call you, Congresswoman, and answer the rest of the 
questions.
    Ms. Granger. Good. Thank you.
    Mr. Etheridge. Thank you.
    And thank you, Mr. Secretary, and thank you for staying. 
You have a huge challenge in the broad breadth of what you have 
to do.
    Let me return back to one. I have asked this question to a 
number of our witnesses when I have had the opportunity and--
    Ms. Granger. We have 9 minutes left before the vote.
    Mr. Etheridge. --and I must confess, we have not gotten a 
resolution to it yet. You started on it, well, just let me 
return.
    Just last week, the America Preparedness Campaign released 
their report on the preparedness of America's 20 largest school 
districts, by and large most of them are metropolitan, urban 
school districts, in their preparedness for security, terror, 
et cetera.
    And certainly the incidents in Russia shocked us all, 
shocked us to a new realization. And having served as a 
superintendent of schools in North Carolina, I think we have 
done a lot of things putting people in place.
    My question is, though in keeping with that, because it is 
not uniform across the country as you well know--urban as well 
as rural--do you think the schools should be added to the 
national critical infrastructure list of having enough 
information to be able to pull together a critical 
infrastructure of what needs to happen in response, or what 
ought to happen?
    Mr. Ridge. Well, I think, first of all, we know schools are 
certainly intellectually and emotionally part of our critical 
infrastructure.
    Mr. Etheridge. Absolutely.
    Mr. Ridge. I also think that we have said that out of the 
billions we are giving to state and local governments, some of 
those dollars are eligible to be used to enhance security 
around schools as well. So whether or not they are on a 
national list of private sector infrastructure, it is not as 
important as they are eligible for some of the dollars, the 
billions of dollars we distributed to the states and locals, 
depending on the need of that school district or that school--
    Mr. Etheridge. Let me follow that up--
    Ms. Granger. Mr. Etheridge, let me say, we have about 6 
minutes left before the vote. And of course we promised 
Secretary Ridge that he would be out of here by 4:30. So if you 
can do it very quickly.
    Mr. Etheridge. I still I have a little time on my clock 
please. I was here for the last meeting and did not get to ask 
questions.
    Ms. Granger. All right.
    Mr. Etheridge. Mr. Secretary, in keeping with that, we have 
a lot of schools that, in addition to that, children in a lot 
of trailers across America. And they are isolated from the main 
buildings for security purposes.
    And in addition to what you have just said, they add an 
additional vulnerability for principals and teachers and those 
who are in those buildings because I know of instances where we 
have had situations not like what happened in Russia.
    Would you care to comment on that? Because I think that is 
a critical piece as we look down the road, and not just say 
they are eligible.
    Mr. Ridge. I must say, respectfully, to a former 
superintendent talking to a former governor, there is a shared 
responsibility--
    Mr. Etheridge. Absolutely.
    Mr. Ridge. --when it comes to education. And the decision 
for whatever reason for a particular school district to isolate 
a building from the main school is certainly within the purview 
of that school district or that secretary of education. And if 
there is, frankly, if there are attendant security problems 
associated with that permanent isolation of the building, one 
could argue very appropriately that it is much more a 
responsibility of the local or the state government.
    Having said that, Ready for Kids will be part of our roll-
out of our national preparedness campaign, working with the 
school districts to review security procedures, evacuation 
procedures, emergency procedures when the children might be 
required to stay at school, and under what circumstances not 
only do they stay, but how we support them.
    There are a large range of issues where I do think the 
federal government has a role to play and federal resources can 
be used. Not to get down in the weeds, but the kind of 
situation you described, I think, is much more local and state 
than federal.
    Mr. Etheridge. Let me clarify that. I think you 
misunderstood my question.
    In some cases, you have school districts who are growing so 
rapidly or for lack of resources, they wind up being isolated 
unintentionally because they are in trailers rather than the 
main building. And this creates some additional problem.
    And if we can make resources available to those who are at 
least eligible, I think it would add a lot of security to those 
local jurisdictions.
    Mr. Ridge. I think the first responsibility of the local 
school district and the state department of education is to 
educate and, secondly, to make sure they are being educated in 
a secure environment.
    There is a role that the federal government has in support 
of both of those missions. And we have made some progress in 
advancing those roles with the Ready for Kids, working with the 
Department of Education on some of the procedures that I 
mentioned.
    And from a personal point of view, I would love to continue 
the private conversation, since we ran out of time.
    Mr. Etheridge. I would like to do that, if we could, 
please. Thank you.
    And I yield back.
    Ms. Granger. I thank Secretary Ridge for his valuable 
testimony and the members for their questions and 
participation.
    The member of the committee may have some additional 
questions for the witness, and we will ask you to respond to 
those in writing.
    The hearing record will be held open for 10 days.
    [Whereupon, at 4:30 p.m., the committee was adjourned.]

                             For the Record

 The Honorable Tom Ridges's Responses to Questions for the Record from 
                     the Honorable John E. Sweeney

Acting Assistant Secretary for Information Analysis Karen Morr submits 
                           on behalf of DHS.

    If all the President's announced intelligence reform initiatives 
and Executive Orders were fully implemented today, how would it 
strengthen:

    Collection of terrorist network information:
    Response: The collection of terrorism information requires a robust 
collection capability that fully leverages the Homeland Security 
Community, Intelligence Community (IC), Law Enforcement (LE), and other 
Communities of Interest (COIs) collection and information-gathering 
resources. The collection of terrorism information is a matter of 
national concern and an area in which overarching collection guidelines 
would serve to ensure the integration of collection activities among 
Federal and non-federal collectors of terrorism information. The 
National Counterterrorism Center (NCTC) in concert with the Interagency 
Intelligence Committee on Terrorism (IICT)* will work to identify a 
common list of terrorism information needs to ensure collection is 
appropriately tasked to fulfill intelligence gaps and shortfalls.
    The DHS Office of Information Analysis (IA) has several efforts 
underway to increase reporting from within the Department and from 
nontraditional external partners. Jointly with the FBI, IA produced 
Terrorist Threat Reporting Guides to improve information collection 
from state and local law enforcement and homeland security officials as 
well as from critical infrastructure owners, operators, and security 
managers. IA is also developing a cadre of reports officers who are 
exploiting DHS-origin information to publish that of counterterrorism 
interest and is of value to the greater communities of interest.
    <SUP>*</SUP> The</SUP> IICT</SUP> is</SUP> the</SUP> interagency</SUP> 
forum</SUP> for</SUP> coordination</SUP> and</SUP> cooperation</SUP> on</SUP> 
counterterrorism-related</SUP> intelligence</SUP> activities,</SUP> 
including</SUP> collection</SUP> requirements.</SUP> The</SUP> IICT</SUP> 
has</SUP> representation</SUP> from</SUP> over</SUP> 50</SUP> U.S.</SUP> 
government</SUP> agencies</SUP> and</SUP> organizations</SUP> from</SUP> 
the</SUP> intelligence,</SUP> law</SUP> enforcement,</SUP> regulatory,</SUP> 
defense,</SUP> and</SUP> consequence</SUP> management</SUP> 
communities.</SUP> The</SUP> Committee</SUP> currently</SUP> reviews</SUP> 
terrorism</SUP> priorities</SUP> on</SUP> a</SUP> quarterly</SUP> 
basis.

    </SUP>Integration of intelligence and infrastructure vulnerability:
    Response: Through the Homeland Security Act of 2002, the Department 
of Homeland Security (DHS) Information Analysis and Infrastructure 
Protection (IAIP) Directorate is charged with ``integrating relevant 
information, intelligence analyses, and vulnerability assessments 
(whether such information, analyses, or assessments are provided or 
produced by the Department or others) to identify protective priorities 
and support protective measures by the Department, by other executive 
agencies, by State and local government personnel, agencies, and 
authorities, by the private sector, and by other entities.'' IAIP fuses 
intelligence and infrastructure information by performing risk analysis 
and assessment activities, including the development of protective 
measures.
    As established by the Office of Infrastructure Protection and 
serving as an extension of the Homeland Security Operations Center 
(HSOC), the National Infrastructure Coordinating Center (NICC) 
maintains operational awareness of the nation's critical 
infrastructures and key resources, and provides a mechanism and process 
for information sharing and coordination between and among government, 
critical infrastructure owners and operators, and other industry 
partners. In support of its mission and that of the IAIP, the NICC will 
continue to provide real-time operational and situational awareness of 
the nation's critical infrastructures and key resources to IAIP and the 
HSOC, as well as between and across all infrastructure sectors. Real-
time sector awareness information, fused with intelligence data and 
risk analyses from the directorate, will continue to enhance the 
domestic counterterrorism focus of IAIP and DHS.
    The creation of the NCTC re-emphasizes the critical national 
requirement to develop an environment for the fusion of information 
related to terrorism. The DHS IAIP responsibility under this construct 
is to ensure that its needs for all-source intelligence information and 
finished threat products are communicated to the NCTC. The Office of 
Information Analysis (IA) within IAIP is required under statute to mesh 
intelligence information with infrastructure vulnerability data and 
develop risk assessments for the homeland. While much of this work 
requires that IAIP have `raw' intelligence access, some efforts can be 
completed by NCTC delivering products that respond specifically to 
IAIP's needs. In addition, IA, as the DHS Departmental Intelligence 
Headquarters, must deliver DHS-origin information to the Intelligence 
Community that can support counterterrorism operational and analytic 
efforts. NCTC can be a supporting mechanism in this regard as well, as 
it continues to build out the infrastructure for disseminating 
information at all classification levels.

    Productive competition in the analytic intelligence community:
    Response: The Intelligence Reform and Terrorism Prevention Act of 
2004 (the Act) will have a substantial impact strengthening competitive 
analysis (also known as ``alternative analysis'' or ``red cell'' or 
``red team'' analysis) within the Intelligence Community (IC). The Act, 
for the first time, mandates the conduct of such analysis across the 
IC. It will give impetus to those IC components that do not currently 
conduct such analysis, and further spur those that do.
    The wording of the Act, however, is very general. It will have the 
greatest positive impact if it is implemented to encourage use of the 
broadest possible range of innovative alternative analysis/red team 
techniques to address intelligence and homeland security issues. It 
will have less positive impact if applied in a ``cookie-cutter'' way to 
require merely the provision of one alternative assessment for each 
mainline assessment (one potential interpretation of the Act). 
ompetitive analysis requires innovation and diverse approaches.
    In the Department of Homeland Security (DHS), the Information 
Analysis and Infrastructure Protection (IAIP) Analytic Red Cell is 
working with mainline analysts to constantly enhance the range of 
alternative, creative approaches to analysis to broaden thinking, 
challenge assumptions, prevent surprise, and ultimately explore ways to 
more rationally deploy security and intelligence resources. This 
includes conducting analysis on issues that mainline analysts have not 
yet focused on, providing outside independent perspectives that may or 
may not track with mainstream analysis, and conducting contrarian 
analysis.
    The Executive Order that preceded the Act may also benefit this 
kind of analysis in DHS and the homeland security community because it 
calls for the National Counterterrorism Center (NCTC) to share 
information necessary for the conduct of alternative analysis in the 
IC. This will ensure that the DHS IAIP Analytic Red Cell can perform 
its function of providing and promoting alternative assessments based 
on the most up-to-date and pertinent information on threats, 
vulnerabilities, and countermeasures affecting the homeland.

    Information sharing with State and local government entities, and
    Response: The Executive Orders and Intelligence Reform initiatives 
will help to strengthen the Department of Homeland Security's ability 
to communicate with state, territorial, tribal, local, and private 
sector officials in ways that protect the privacy and civil liberties 
of American citizens and legal permanent residents. The Secretary of 
DHS will work with other Federal agencies, including the Director of 
National Intelligence (DNI) to assure that terrorism information 
sharing and collaboration among all levels of government are executed 
in a manner to achieve enhanced fusion of information. Information 
sharing is far more extensive than simply intelligence. DHS and its 
leadership will continue to strive to provide a single, unified voice 
on behalf of the Federal government to our State, territorial, tribal, 
local, and private sector partners.

    Information sharing with the private sector?
    Response: The Department of Homeland Security (DHS) estimates that 
approximately 85 percent of our critical infrastructure and key 
resources are owned or operated by the private sector. They are the 
front line in securing many of the nation's critical infrastructure 
assets. The President's proposed legislation, Executive Orders, and 
intelligence reform initiatives have identified that information 
sharing is critical to the exchange of terrorist threat and other 
homeland security information with the private sector, state and local 
governments and among federal governmental agencies. Strategic threat 
information enables owners and operators to focus. Actionable tactical 
threat information allows them to assess risk and respond appropriately 
in a timely manner. There are currently a number of ongoing successful 
programs for the two-way sharing of unclassified information with the 
private sector. Iplementation of the Critical Infrastructure 
Information Act of 2002 and the establishment of the Homeland Security 
Information Network are two examples. Additionally, the Department 
continues to dedicate resources to the process of granting appropriate 
security clearances to private sector individuals. This furthers our 
ability to share classified terrorist threat information and other 
sensitive products that address the security of and potential threats 
to our critical infrastructure and key resources.
    Secretary Ridge, I have asked you repeatedly on the record, in 
questions for the record and of your senior staff the same question 
without resolution. The FY05 House Homeland Security Appropriations 
bill advises you to stand up an Office of Geospatial Management within 
the CIO's office to create a Department Wide Geospatial Information 
System capability. Specifically, when will you stand up this office and 
where will it be located organizationally?
    Response: The DHS Geospatial Management Office (GMO) has been 
established within the DHS Office of The Chief Information Officer 
(CIO) and is currently operational within the Department. The GMO is 
responsible within the Department to coordinate geospatial information 
needs, requirements and other related spatial data activities that 
support the Enterprise Geospatial Information System (E-GIS) 
capability. The GMO will provide clear and concise policy direction 
across the Department as needed for an E-GIS geospatial information 
capability. The GMO will guide the development and execution of the 
implementation plan for the geospatial enablement of DHS mission 
systems. The plan will provide a common set of geospatial data 
management and processing capabilities that will be incorporated into 
the emerging Homeland Security (HLS) Enterprise Architecture. This will 
allow the Department to further enable awareness, prevention, 
protection, response, recovery of the homeland security mission.

    From the perspective of DHS, do you support the 9/11 recommendation 
to declassify the top line intelligence budget?
    Response: Both the 9/11 Commission and the United States Congress 
have done extensive and indispensable work in the area of intelligence 
reform and made valuable recommendations in reference to a Director of 
National Intelligence. Similarly, steps need to be taken to ensure 
sensitive information remain protected from our terrorist adversaries 
that have shown their desire and willingness to use all means possible 
to gain information about the United States Intelligence Community.

    Mr. Secretary, do you agree with the 9/11 recommendation to 
establish an open source analysis center? If so, specifically how would 
DHS accomplish this task financially and organizationally?
    Response: In their quest to gain information from all possible 
sources, terrorists have proven willing and able to use open sources 
for their purposes. Intelligence Community (IC) members recognize this 
vulnerability and as a result, personnel are working daily to analyze 
this type of intelligence. The IC will address this issue, as well as 
the placement, organization, and financing of any future centers as 
plans for the reorganization of the IC continue to take shape. As we do 
so, it will be important to ensure that all actions are consistent with 
protecting privacy and the civil liberties of the American people.

    With centralization of intelligence analysis production priorities, 
how will DHS keep a high priority on integration of intelligence and 
infrastructure vulnerability information?
    Response: The Office of Information Analysis (IA) will continue to 
act as the Office of Intelligence for DHS and will collaborate on 
intelligence related to the terrorist threat with NCTC elements. 
Specifically, IA will provide support to the Department by continuing 
to develop and execute information sharing relationships and procedures 
with State, territorial, tribal, local, and private sector officials, 
will work with IP to support risk analysis and assessments and 
development of protective measures, will provide direct support to the 
Secretary and Department Senior Staff, and will support the Homeland 
Security Advisory System (HSAS). IA will also continue to represent DHS 
component requirements to the Intelligence Community (IC), perform 
threat assessments on domestic terrorism, foster international 
agreements for information sharing, and perform alternative analysis. 
Additionally, the IA roles of developing a cadre of Homeland Security 
Analysts for DHS and the IC and developing an education and training 
program for DHS analysts and intelligence professionals will increase 
in scope.
    Further, the Intelligence Community works selectively with critical 
infrastructure and key resource sectors, depending on the nature of 
specific issues and the agencies involved. These relationships and 
processes are based primarily on past experience and existing 
relationships. In July 2004, the White House asked the National 
Infrastructure Advisory Council (NIAC) to develop recommendations that 
would improve the utilization and effectiveness of intelligence 
capabilities to protect critical infrastructure. The NIAC members are 
appointed by the President and are supported by the Information 
Analysis and Infrastructure Protection Directorate of the Department. 
Specifically, the NIAC, comprised of private sector critical 
infrastructure and key resource business leaders, state and local 
government officials, emergency services officials and educators, was 
asked to explore ways to improve the information requirements 
definition processes and interaction between the intelligence community 
and critical infrastructure sectors. The NIAC plans to provide its 
recommendations to the President by the end of 2005.

    From the perspective of DHS, do you believe that ``Centers'' in the 
intelligence community provide added value?
    Response: Yes. Centers within the Intelligence Community (IC) can, 
and in the case of the Terrorist Threat Integration Center (TTIC)--now 
the National Counterterrorism Center (NCTC)--do provide important 
conduits for information sharing throughout the Federal Government and 
help to prevent the kind of miscommunication that occurred prior to the 
attacks of September 11, 2001.

    Do you believe a new National Center to Counter Weapons of Mass 
Destruction Proliferation is needed?
    Response: The Commission on the Intelligence Capabilities of the 
United States Regarding Weapons of Mass Destruction (the ``Robb-
Silberman Commission''), was created by Executive Order to examine the 
capabilities and challenges of the Intelligence Community (IC) to 
collect, process, analyze, produce, and disseminate information 
concerning the capabilities, intentions, and activities of such foreign 
powers relating to the design, development, manufacture, acquisition, 
possession, proliferation, transfer, testing, potential or threatened 
use, or use of Weapons of Mass Destruction, related means of delivery, 
and other related threats of the 21st Century. The Commission has been 
tasked by the President to assess whether the Intelligence Community is 
sufficiently authorized, organized, equipped, trained, and resourced to 
identify and warn in a timely manner of, and to support United States 
Government efforts to respond to, the development and transfer of 
knowledge, expertise, technologies, materials, and resources associated 
with the proliferation of Weapons of Mass Destruction, related means of 
delivery, and other related threats of the 21st Century and their 
employment by foreign powers (including terrorists, terrorist 
organizations, and private networks, or other entities or individuals). 
The Commission has already done important work and will make valuable 
recommendations to the President regarding its findings in its report 
due March 31, 2005.
    Secretary Ridge, when the 9/11 Chair and Vice Chair were before 
this Committee, I spent time questioning witnesses about Congress' 
intent when it established the Department of Homeland Security to solve 
the infrastructure information and intelligence integration problem.
    I am an advocate of lessening bureaucracy and avoiding duplicity of 
effort with taxpayer funds. DHS' Information Analysis and 
Infrastructure Protection directorate has a clear statutory mandate, is 
putting its team together, and is distributing information to key 
customers through the Homeland Security Information Network.
    The Terrorist Threat Integration Center (TTIC) was set up to have 
the primary responsibility in the U.S. Government for terrorism 
analysis (except information relating solely to purely domestic 
terrorism) and to be responsible for the day-to-day terrorism analysis 
provided to the President and other senior policymakers. All members of 
the intelligence community participate in its work, provide 
comprehensive information to its staff, and have a stake in its 
success.

    What is the difference between your recommended National 
Counterterrorism Center and the TTIC?
    Response: The National Counterterrorism Center (NCTC) created 
through Executive Order on August 27, 2004 will build upon the 
capabilities of the Terrorist Threat Integration Center (TTIC). In 
addition to serving as the primary organization in the United States 
Government (USG) for analyzing and integrating all intelligence 
possessed or acquired by the USG pertaining to terrorism and 
counterterrorism (excepting purely domestic counterterrorism 
information), the NCTC will conduct strategic operational planning for 
counterterrorism activities, assign operational responsibilities to 
lead agencies for counterterrorism activities, serve as the central and 
shared knowledge bank on known and suspected terrorists and 
international terror groups, and ensure that agencies, as appropriate, 
have access to and receive all-source intelligence support needed to 
execute their counterterrorism plans or perform independent, 
alternative analysis.

    Do you believe that DHS will play a central role in the new 
National Counterterrorism Center?
    Response: Yes. NCTC operates as a partnership of organizations, 
including the Department of Homeland Security (DHS). DHS analysts 
contribute the unique ability to understand intelligence information 
and its impact on State, territorial, tribal, local, and private sector 
elements. Integration of DHS analysts allows the NCTC to leverage DHS 
partnerships with the aforementioned elements, and threat information 
developed at NCTC will support the homeland security mission--
optimizing information developed by DHS to better understand the 
domestic condition.'' The Department will also play an appropriate role 
in NCTC's Strategic Operational Planning function.

    How can you guarantee this?
    Response: NCTC's success is dependent upon the contributions of its 
partners. DHS information expertise, personnel, and relationships are 
critical components of that success.

                                 <all>

</pre></body></html>
